<html>
<title> - FINANCIAL SERVICES AND GENERAL GOVERNMENT APPROPRIATIONS FOR FISCAL YEAR 2016</title>
<body><pre>[Senate Hearing 114-]
[From the U.S. Government Publishing Office]


 
  FINANCIAL SERVICES AND GENERAL GOVERNMENT APPROPRIATIONS FOR FISCAL 
                               YEAR 2016

                              ----------                              


                         TUESDAY, JUNE 23, 2015

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:33 a.m., in 
room SD-124, Dirksen Senate Office Building, Hon. John Boozman 
(chairman) presiding.
    Present: Senators Boozman, Lankford, Coons, Mikulski, and 
Moran.

                     OFFICE OF PERSONNEL MANAGEMENT

STATEMENT OF KATHERINE L. ARCHULETA, DIRECTOR
ACCOMPANIED BY:
        MICHAEL R. ESSER, ASSISTANT INSPECTOR GENERAL FOR AUDITS
        RICHARD A. SPIRES, CHIEF EXECUTIVE OFFICER, RESILIENT NETWORK 
            SYSTEMS, INC.

               OPENING STATEMENT OF SENATOR JOHN BOOZMAN

    Senator Boozman. The hearing will come to order.
    The massive breach of the Office of Personnel Management 
(OPM) systems may be the most devastating cybersecurity attack 
in our Nation's history. Unfortunately, while the news reports 
about these incidents have been shocking, they should not be 
surprising. The OPM incident follows several across Government 
and is only the latest example of the Federal Government's 
inability to protect itself from cybersecurity threats.
    Today's hearing before the Subcommittee on Financial 
Services and General Government is intended to elicit further 
information about the recent OPM data breaches. It is also a 
time to discuss the enormous challenges facing the Federal 
Government as it attempts to ensure this does not happen again.
    The Government spends approximately $82 billion a year on 
information technology. Given the cost of these projects and 
their impact on our economy and national security, members of 
the subcommittee have an ongoing commitment to conduct 
oversight. We must ensure that hard-earned tax dollars of 
millions of Americans are being spent wisely and effectively.
    Just last year, the subcommittee held a hearing with OPM 
Director Archuleta, former Chief Information Officer (CIO) 
Steve VanRoekel, former General Services Administration (GSA) 
Administrator Dan Tangherlini, and the Director of Information 
Technology (IT) Management Issues at the Government 
Accountability Office (GAO) David Powner. Given the enormous 
resources and important security issues at stake, the 
subcommittee considered it imperative that the Office of 
Management and Budget (OMB) and Federal agencies appropriately 
managed these projects.
    We're all well aware of examples of projects that ended in 
spectacular failure, as with the initial rollout of 
healthcare.gov. While that kind of crisis makes news, we should 
also be troubled by the accounts that don't grab headlines, 
including initiatives with ongoing costs that grow each year 
after year without demonstrating effective results or 
sufficient security.
    We must have safeguards in place to ensure that oversight 
of these projects are consistent, that problems are anticipated 
before they occur, and, most importantly, that someone is 
actually accountable and responsible. All too often, large 
complex IT projects drag on for years, outlasting the 
administration that initiated them and the employees 
responsible for managing them.
    In the Financial Services and General Government bill 
alone, billions have been spent over the years on tax system 
modernization at the Internal Revenue Service (IRS), work that 
has been continuing for decades and is still incomplete. Even 
for projects now on track, past problems generate millions in 
additional costs and years of delay.
    And as we have seen recently at IRS and once again with the 
OPM breach, both of which have compromised the personal data of 
millions of Americans, billions of Federal dollars spent are no 
guarantee of security. Across the Government, IT projects too 
frequently go over budget, fall behind schedule, and do not 
deliver value to taxpayers.
    Responsibility for oversight is often fragmented throughout 
the agency owning the project, and OMB does not conduct 
appropriate review and management. Whether issues related to 
program requirements, performance, spending, or security, lots 
of people are involved, but often no clear lines of 
accountability are drawn.
    What has happened at OPM is devastating. Millions of 
Americans and their families and friends have been affected. 
Giving those impacted limited free credit monitoring and 
identity theft insurance will not be enough to address the 
long-term consequences that we may see for years to come.
    But also troubling is the knowledge that OPM is just the 
most recent example of the Government's systemic failure to 
protect itself. According to GAO, we should have serious 
concerns for the future. The number of information security 
incidents reported by Federal agencies has exploded in recent 
years.
    Constant vigilance is required, and GAO has found that 
Government systems may not be prepared for the job. Nineteen of 
24 major Federal agencies have reported deficiencies in 
information security controls. The Inspector General (IG) at 23 
of those agencies cited information security as a major 
management challenge.
    How many headlines of serious data breaches will it take to 
implement the steps necessary to protect ourselves? And at what 
point do some in Washington recognize that growing the 
bureaucracy without actually governing is a recipe for this 
type of disaster.
    The Obama administration views the Federal Government as 
capable of tackling almost every problem that the Nation faces. 
Yet while attempting to grow the size and scope of the Federal 
Government at every turn, the administration fails to follow 
through on the tasks it is already responsible for. If you 
bounce from one bigger Government solution to another without 
carrying out your basic responsibilities, this is what happens.
    It's easy to suggest more money is the solution. That seems 
to be the response the administration leans on every time 
there's a problem. But it is often the wrong choice, especially 
in situations like this where it appears that the problem is 
something much greater than a lack of resources.
    The American people have lost faith in their institutions. 
The last thing they will do is trust Washington to solve a 
problem when it can't even protect the personal information of 
those it employs.
    There needs to be a dramatic change in the status quo.
    What I hope to hear from our witnesses today is not the 
same stale line that more money is needed, but an explanation 
as to why the Federal Government failed to do the basic job of 
protecting personal data of millions of employees with the vast 
resources it already has in hand, what it's doing right now to 
resolve this problem, and what is being done to ensure that we 
are prepared for the next attack.
    I hope with your help we can learn from this incident and 
identify ways to improve and protect our security. I appreciate 
the interest of all my colleagues and our shared commitment to 
doing what we can to work together to try and address this so 
important issue. We cannot afford not to.
    Senator Coons.

               STATEMENT OF SENATOR CHRISTOPHER A. COONS

    Senator Coons. Thank you, Chairman Boozman.
    I'd like to welcome our witnesses, OPM Director Katherine 
Archuleta, Assistant OPM Inspector General Michael Esser, and 
former Department of Homeland Security (DHS) and the Internal 
Revenue Service (IRS) Chief Information Officer Richard Spires.
    We are here today, as the chairman has laid out, to review 
information technology spending and data security at the Office 
of Personnel Management. As part of that review, we need to 
discuss recent cybersecurity attacks that have put Federal 
employee information and our national security at real risk.
    We also need to address the late-breaking inspector general 
audit that expresses concerns about OPM's IT modernization 
project. But while we conduct this subcommittee oversight of 
OPM and its spending and response, I also urge us to put this 
in the context of larger cybersecurity challenges that face our 
Government and our society as a whole, and progress, or lack 
thereof, by Congress in strengthening our Nation's cyber 
defenses and in providing needed funding for Federal 
cybersecurity and IT initiatives.
    Regarding the cyber incidents at OPM, one breach involved 
personnel data of roughly 4 million Federal employees stored on 
Interior Department networks. During the breach, investigators 
found another intrusion where information from background 
investigations was allegedly stolen.
    I understand OPM only recently became aware of the security 
clearance theft and that the investigation is still underway. 
So while we may be limited in exactly what we can discuss in 
this context, I'm very hopeful we can have a productive and 
ongoing conversation.
    The fact these security breaches happened is, frankly, 
terrible. They force us to grapple with the reality that in our 
interconnected world, we're more vulnerable than ever, and we 
need to do more to protect our public employees' vital personal 
information from foreign attackers.
    After we've investigated why these cyber attacks were able 
to break through, we need to be willing to do what's necessary 
to ensure they don't happen again. These attacks don't just 
compromise the information of millions of Federal employees, 
but our Nation's security, as well.
    It's further troubling the IG's office has found that OPM 
has not fully complied with the Federal Information Security 
Management Act, which mandates information security 
requirements for all Federal agencies. While OPM has made 
recent improvements, we need to remain vigilant.
    Both Director Archuleta and the OPM CIO have only been on 
the job roughly a year and a half. And to their credit, they 
have made IT security a priority. But they need to clearly 
understand that the job is not done.
    OPM has indicated to the subcommittee most of its IT 
security systems are aged and at the end of their useful life. 
For some, security patches are no longer provided by the 
original vendor. In fiscal year 2014, OPM began a 3-year IT 
system modernization and is seeking a third installment of $21 
million to complete that project this year. And we have to 
understand that without that funding, the investment of the two 
previous years can't be meaningfully completed.
    I was alarmed by the IG's allegations about mismanagement 
of the modernization projects to date and hope that OPM's 
representatives will speak to these assertions directly here 
today.
    Last, I just wanted to emphasize, I think we need to 
prevent another round of sequestration. OPM's fiscal year 2016 
budget request includes a $32 million increase over last year's 
enacted level, virtually all of which would address IT 
infrastructure improvements. Sequestration could critically 
threaten those investments and even the livelihoods of our 
employees.
    While some of these cuts might be weathered in the short 
term, they can have serious long-term impacts. And I think we 
need to work together to ensure Federal agencies are prepared 
as best they can be to protect against cyber threats.
    The Federal Government is at constant threat of cyber 
attacks. It successfully wards off millions of attempted 
attacks a year. And I think we need to work together to protect 
the Nation's economic and national security interests by coming 
together to deal with these vital cybersecurity issues.
    Chairman Boozman, thank you for holding this hearing, and 
I'm eager to continue to work together as we consider the needs 
of our Federal agencies in combating cyber threats.
    Senator Boozman. Thank you, Senator.
    Senator Mikulski. Mr. Chairman, may I just make a few 
comments and observations?
    Senator Boozman. You sure can. You can comment all you 
like.
    Senator Mikulski. First of all, Mr. Chairman, I really want 
to thank you for your leadership in convening this hearing. I 
think America wants to know, certainly our Federal employees 
want to know, what happened and what is the impact on them, and 
what is the impact on the Nation.
    I would strongly recommend to the chair that, after this 
hearing and then also the briefing we'll receive this 
afternoon, the chair and the ranking consider having a 
classified briefing, because as a member of both the Intel 
Committee and someone who has been involved on this, there are 
things that are best discussed that you need to know for your 
responsibilities in a setting. And Senator Cochran and I would 
be happy to cooperate with you in establishing that. You'll 
know more this afternoon.
    The second point is, what has happened at OPM, and also 
what happened to the breaches at the Army, shows that this is a 
serious national issue. It affects not only OPM, but every 
agency, and also shows that national security and its impact is 
not limited to the Department of Defense (DOD).
    Mr. Chairman, I also want to remind the committee or bring 
to their attention, we tried to deal with this in 2012. Under 
the leadership of Senators Lieberman and Collins, there was a 
bipartisan effort to have a cybersecurity bill that dealt with 
new authorities for key agencies to establish standards for 
critical infrastructure, create an info-sharing regime to 
protect both dot-gov and dot-com, and giving DHS authority to 
unite Federal resources across all levels of Government to have 
both the authorities to make sure they have the resources to 
know how to do the right job.
    Exactly what you're saying, sir. Let's not just throw money 
at it. Let's get value and security for the dollar.
    That was stopped because the Chamber of Commerce 
established a massive lobbying campaign, because they were 
worried that we would overregulate. Well, we are where we are.
    So we need to do a lot of work. We had a bipartisan study 
group. They had people like Blunt, Coats, Collins, those of us 
on Intel and Approps. So maybe we need to resurrect that 
because it's OPM today, it'll be another agency tomorrow. We've 
got to make sure our cyber shields are up, we're fit for duty, 
and we're fit to protect our people.
    So I just wanted to refresh everybody of that. And of 
course, my Federal employees need to know what happened, how do 
they protect themselves. And we need to know how to protect 
America.
    So thank you, Mr. Chair.
    Senator Boozman. Thank you, Senator. And I think the 
suggestion of the classified briefing is an excellent one.
    And also, this is, certainly, not a partisan issue. This is 
something that's been going on for a long, long time through 
successive administrations.
    We have three witnesses appearing before us today: 
Katherine Archuleta, director of the Office of Personnel 
Management; Michael Esser, Assistant IG for Audits at OPM; and 
Richard Spires, CEO of Resilient Network Systems and former 
Chief Information Officer at DHS and IRS.
    Director Archuleta, I invite you to present your testimony.

              SUMMARY STATEMENT OF KATHERINE L. ARCHULETA

    Ms. Archuleta. Chairman Boozman, Ranking Member Coons, and 
members of the subcommittee, Government and nongovernment 
entities are under constant attack by evolving and advanced 
persistent threats and criminal actors. These adversaries are 
sophisticated, well-funded, and focused.
    Unfortunately, these attacks will not stop. If anything, 
they will increase.
    Although OPM has taken significant steps to meet our 
responsibility to secure personnel data, it is clear that OPM 
needs to accelerate these efforts, not only for those 
individuals personally, but also as a matter of national 
security.
    My goal as director is to leverage cybersecurity best 
practices and protect the sensitive information entrusted to 
the agency, modernizing our IT infrastructure to better 
confront emerging threats, and to meet our mission and our 
customer service expectations.
    OPM has undertaken an aggressive effort to update its 
cybersecurity. For fiscal year 2014 and 2015, we committed 
nearly $67 million toward shoring up our IT infrastructure. In 
June of 2014, we began to completely redesign our current 
network while also protecting our legacy network.
    These projects are ongoing, on schedule, and on budget. We 
implemented state-of-the-art practices, such as additional 
firewalls, two-factor authentication for remote access, and 
limited privilege access rights. We are also increasing the 
types of methods utilized to encrypt our data.
    As a result of these efforts, in April 2015, an intrusion 
that predated the adoption of these security controls affecting 
OPM's IT systems and data was detected by our new cybersecurity 
tools. OPM immediately contacted DHS and the FBI. And together, 
we initiated an investigation to determine the scope and the 
impact of the intrusion.
    In early May, the interagency incident response team shared 
with relevant agencies that the exposure of personnel records 
had occurred.
    In early June, OPM informed Congress and the public that 
notification actions would be sent to affected individuals 
beginning on June 8 through June 19.
    We are continuing to learn more about the systems that 
contributed to individuals' data potentially being compromised.
    For example, we have now confirmed that any Federal 
employee from across all branches of Government whose 
organization submitted service history records to OPM may have 
been compromised, even if their full personnel file is not 
stored in OPM's system. These individuals were included in the 
previously identified population of approximately 4 million 
current and former Federal employees, and have been included in 
the notification.
    Later in May, the interagency incident response team 
concluded that additional systems were likely compromised. This 
separate incident, which also predated the development of our 
new security tools and capabilities, continues to be 
investigated by OPM and our interagency partners.
    Based on this continuing investigation in early June, the 
interagency response team shared with relevant agencies that 
there was a high degree of confidence that OPM systems related 
to background investigations of current, former, and 
prospective Federal Government employees, and for those for 
whom a Federal background investigation was conducted, may have 
been compromised.
    While we have not yet determined its scope and its impact, 
we are committed to notifying those individuals whose 
information may have been compromised as soon as practicable.
    But for the fact that OPM implemented new, more stringent 
security tools in its environment, we would never have known 
that malicious activity had previously existed in the network.
    In response to these incidents, OPM, working with our 
partners at DHS, has immediately implemented additional 
security measures to protect the sensitive information we 
manage. We continue to execute our aggressive plan to modernize 
OPM's platform and bolster security tools. We are on target to 
finish a completely new modern and secure datacenter 
environment by the end of fiscal year 2015, which will 
eventually replace our legacy network.
    OPM's 2016 budget request included an additional $21 
million above 2015 funding levels to further support the 
modernization of our IT infrastructure, which is critical to 
protecting data from persistent adversaries that we face. This 
funding will help sustain the network security upgrades and 
maintenance initiated in fiscal years 2014 and 2015 to improve 
OPM's cyber posture, including advanced tools, such as database 
encryption and stronger firewalls and storage devices.
    We discovered these intrusions because of our increased 
efforts in the last 18 months to improve cybersecurity at OPM, 
not despite them.

                           PREPARED STATEMENT

    I am dedicated to ensuring that OPM does everything in its 
power to protect the Federal workforce and to ensure that our 
systems will have the best security posture the Government can 
provide.
    Thank you and I appreciate the opportunity to testify 
today. I am happy to address any questions you may have.
    [The statement follows:]
              Prepared Statement of Katherine L. Archuleta
            a review of it spending and data security at opm
    Chairman Boozman, Ranking Member Coons, and members of the 
subcommittee:

    Government and non-government entities are under constant attack by 
evolving and advanced persistent threats and criminal actors. These 
adversaries are sophisticated, well-funded, and focused. Unfortunately, 
these attacks will not stop--if anything, they will increase. Although 
OPM has taken significant steps to meet our responsibility to secure 
the personal data of those we serve, it is clear that OPM needs to 
dramatically accelerate these efforts, not only for those individuals 
personally, but also as a matter of national security. When I was sworn 
in as the Director of the U.S. Office of Personnel Management (OPM) 18 
months ago, I immediately became aware of security vulnerabilities in 
the agency's aging legacy systems and I made the modernization and 
security of our network and its systems one of my top priorities. My 
goal as Director of OPM, as laid out in OPM's February 2014 Strategic 
Information Technology (IT) Plan, has been to leverage cybersecurity 
best practices to protect the sensitive information entrusted to the 
agency, while modernizing our IT infrastructure to better confront 
emerging threats and meeting our mission and customer service 
expectations.
Strengthening and Enhancing OPM's Data Security
    Over the last 18 months, OPM has undertaken an aggressive effort to 
update its cybersecurity posture, adding numerous tools and 
capabilities to its networks. For fiscal years 2014 and 2015 we have 
committed nearly $70 million towards shoring up our IT infrastructure. 
In June 2014, we began to completely redesign our current network, 
while also protecting our legacy network to the maximum extent possible 
in the interim. These projects are ongoing, on schedule, and on budget. 
The first phase of this project was to deploy the tools required to 
address critical vulnerabilities on the existing network. As part of 
this effort, in January 2015 we implemented state of the art practices, 
such as additional firewalls, two-factor authentication for remote 
access, and limited privileged access rights. Currently, we are also 
increasing the types of methods utilized to encrypt our data. These 
methods cover not only data at rest, but data in transit, and data 
displayed through masking or redaction.
    As a result of these efforts to improve our security posture, in 
April 2015, an intrusion that predated the adoption of these security 
controls affecting OPM's IT systems and data was detected by our new 
cybersecurity tools. OPM immediately contacted the Department of 
Homeland Security (DHS) and the Federal Bureau of Investigation (FBI) 
and, together with these partners, initiated an investigation and 
forensic analysis to determine the scope and impact of the intrusion. 
Shortly thereafter, OPM notified congressional leadership and select 
committees of this incident. In early May, the interagency incident 
response team shared with relevant agencies that the exposure of 
personnel records had occurred. That very same day, we worked to brief 
congressional leadership and select committees. In early June, OPM 
informed Congress and the public that notifications would be sent to 
affected individuals beginning on June 8 through June 19. We refer to 
this incident as the intrusion affecting personnel records.
    As part of the ongoing investigation and analysis, we are 
continuing to learn more about the systems that contributed to 
individuals' data potentially being compromised. For example, we have 
now confirmed that any Federal employee from across all branches of 
Government whose organization submitted service history records to OPM 
may have been compromised--even if their full personnel file is not 
stored on OPM's system. These individuals were included in the 
previously identified population of approximately four million current 
and former Federal employees and are being appropriately notified.
    During the course of the ongoing investigation, the interagency 
incident response team concluded--later in May--that additional systems 
were likely compromised, also at an earlier date. In late May, OPM and 
the interagency notified Congressional leadership and select committees 
of this separate intrusion. This separate incident--which also predated 
deployment of our new security tools and capabilities--continues to be 
investigated by OPM and our interagency partners. Based on this 
continuing investigation, in early June, the interagency response team 
shared with relevant agencies that there was a high degree of 
confidence that OPM systems related to background investigations of 
current, former, and prospective Federal Government employees, and 
those for whom a Federal background investigation was conducted, may 
have been compromised. We are currently working with our interagency 
partners to continue to offer classified briefings for members and 
staff on the status of this investigation. While we have not yet 
determined its scope and impact, we are committed to notifying those 
individuals whose information may have been compromised as soon as 
practicable. This separate incident is one that we refer to as the 
intrusion affecting background investigations.
    But for the fact that OPM implemented new, more stringent security 
tools in its environment, we would have never known that malicious 
activity had previously existed on the network, and would not have been 
able to share that information for the protection of the rest of the 
Federal Government. In response to these incidents, OPM, working with 
our partners at DHS has immediately implemented additional security 
measures to protect the sensitive information it manages and to take 
steps toward building a simplified, modern, and flexible network 
infrastructure.
Driving Continued Progress on IT Modernization
    We continue to execute on our aggressive plan to modernize OPM's 
platform and bolster security tools. We are on target to finish a 
completely new modern and secure data center environment by the end of 
fiscal year 2015 which will eventually replace our legacy network. 
OPM's 2016 budget request included an additional $21 million above 2015 
funding levels to further support the modernization of our IT 
infrastructure, which is critical to protecting data from the 
persistent adversaries we face. This funding will help us sustain the 
network security upgrades and maintenance initiated in fiscal year 2014 
and fiscal year 2015 to improve OPM's cyber posture, including advanced 
tools such as database encryption and stronger firewalls and storage 
devices.
Conclusion
    As we are all aware, Government and non-government entities are 
under constant attack by evolving and advanced persistent threats and 
criminal actors. Again--we recognize that these attacks will increase. 
We are working with an interagency team to identify and rapidly 
implement protections that will decrease our risk; however, as we 
address critical immediate needs we also need to continue our work to 
address long-term strategic challenges that affect our ability to 
ensure the security of our networks in light of this persistent threat. 
As our OIG has noted, OPM has been challenged for several years in 
building and maintaining a strong management structure and the 
processes needed for a successful information technology security 
program. OPM agrees with this assessment which is why I prioritized 
development of the agency's Strategic IT Plan and have prioritized its 
implementation.
    We discovered these intrusions because of our increased efforts in 
the last 18 months to improve cyber security at OPM, not despite them. 
I am dedicated to ensuring that OPM does everything in its power to 
protect the Federal workforce, and to ensure that our systems will have 
the best cyber security posture the Government can provide.
    We thank you for your support of our ongoing efforts to strengthen 
our IT security and I appreciate the opportunity to testify today. I am 
happy to address any questions you may have.

    Senator Boozman. Mr. Esser.

                 SUMMARY STATEMENT OF MICHAEL R. ESSER

    Mr. Esser. Chairman Boozman, Ranking Member Coons, and 
members of the committee, good morning. My name is Michael 
Esser, and I am the Assistant Inspector General for Audits at 
the U.S. Office of Personnel Management. Thank you for inviting 
me to testify at today's hearing on the IT audit work performed 
by the OPM Office of the Inspector General.
    Senator Boozman. Can you put your microphone on? It's on? 
Just pull it closer then.
    Mr. Esser. Today I will be discussing OPM's long history of 
systemic failures to properly manage its IT infrastructure, 
which we believe may have ultimately led to the breaches we are 
discussing today, as well as issues related to OPM's current IT 
modernization project.
    There are three primary areas of concern that we have 
identified through our Federal Information Security Management 
Act (FISMA) audits during the past several years: information 
security governance, security assessment and authorization, and 
technical security controls.
    Information security governance is the management structure 
and processes that form the foundation of a successful security 
program. For many years, OPM operated in a decentralized manner 
with the agency's program officers managing their IT systems. 
This decentralized structure had a negative impact upon OPM's 
IT security posture, and all of our FISMA audits between 2007 
and 2013 identified this as a serious concern.
    By 2014, steps taken by OPM to centralize IT security 
responsibility with the CIO had resulted in many improvements. 
However, it is apparent the OCIO is still negatively impacted 
by the many years of decentralization.
    The second concern is security assessments and 
authorization. This process includes a comprehensive assessment 
of each IT system to ensure that it meets the applicable 
security standards before allowing the system to operate. We 
identified problems related to system authorizations in 2010 
and 2011, but removed it as an audit concern in 2012. However, 
problems with OPM system authorizations have reappeared. In 
2014, 21 OPM systems were due to receive a new authorization 
but 11 were not authorized by year-end.
    In addition, the Office of the Chief Information Officer 
(OCIO) has recently put authorization efforts on hold until it 
completes the current modernization project. This action to 
extend authorizations is contrary to OMB guidance, which 
specifically states that an extended or interim authorization 
is not valid. It is also worth noting that OMB no longer 
requires systems to be authorized every 3 years, but that is 
assuming that agencies have implemented a mature continuous 
monitoring program.
    Our FISMA auditing determined that OPM does not have a 
mature program. Therefore, we still expect OPM systems to have 
current authorizations.
    The third concern relates to OPM's use of technical 
security controls. OPM has implemented a variety of controls 
and tools to make the agency's IT systems more secure. While 
this is obviously a positive step, we are concerned these tools 
are not being implemented properly and did not cover the entire 
technical infrastructure as we found that OPM does not have an 
accurate centralized inventory of all servers and databases.
    Even if all the security tools were being used properly, 
OPM cannot fully defend its network without a comprehensive 
list of assets.
    Also, there has been much discussion of the difficulty in 
securing OPM systems as they are old legacy systems. While this 
is true in many cases and many OPM systems are mainframe based, 
it is our understanding that some of the systems impacted by 
the breaches are, in fact, modern systems for which most of the 
technical improvements necessary to secure them could be 
accomplished.
    In addition to the issues identified in our FISMA audits, I 
would also like to briefly address OPM's IT modernization 
project, which will overhaul its entire infrastructure and 
migrate all systems to a new data center environment. We 
recently issued a flash audit alert discussing this project and 
our concerns related to project management and the use of a 
sole source contract for the duration of the effort.
    One area of significant concern that we identified is that 
OPM does not have a dedicated funding source for the entire 
project. Its estimate of $93 million includes only the initial 
phases of the project, which covers tightening up the security 
controls and building a new shell environment. The $93 million 
estimate does not include the cost of migrating approximately 
50 major IT systems to this new shell environment. The cost of 
this work is likely to be substantial, and the lack of a 
dedicated funding source increases the risk that the project 
will fail to meet its objectives.

                           PREPARED STATEMENT

    In closing, it is clear that OPM has a great deal of work 
to do to strengthen its IT security posture. We fully support 
the concept of OPM's IT modernization project. However, 
especially for a task of this magnitude, it is imperative that 
OPM follow solid IT project management best practices to 
provide the project the best chance for success.
    Thank you for your time. I'm happy to answer any questions 
you may have.
    [The statement follows:]
                 Prepared Statement of Michael R. Esser
           it spending and data security at opm june 23, 2015
    Chairman Boozman, Ranking Member Coons, and members of the 
subcommittee:

    Good morning. My name is Michael R. Esser. I am the Assistant 
Inspector General for Audits at the U.S. Office of Personnel Management 
(OPM). Thank you for inviting me to testify at today's hearing 
discussing the information technology (IT) spending and data security 
at OPM. Specifically, today I will be discussing the audits that the 
Office of the Inspector General (OIG) conducts in accordance with the 
Federal Information Security Management Act, commonly known as 
``FISMA.'' Although OPM has made progress in certain areas, some of the 
current problems and weaknesses were identified as far back as fiscal 
year 2007. We believe this long history of systemic failures to 
properly manage its IT infrastructure may have ultimately led to the 
breaches we are discussing today.
OIG's FISMA Work
    FISMA requires that OIGs perform annual audits of their agencies' 
IT security programs and practices. These audits are conducted in 
accordance with guidance issued each year by the U.S. Department of 
Homeland Security (DHS) Office of Cybersecurity and Communications. 
Today I will talk about three of the most significant concerns 
highlighted in our fiscal year 2014 FISMA report. However, it is 
important to note that our report contained a total of 29 
recommendations covering a wide variety of IT security topics. Only 3 
of these 29 recommendations have been closed to date, and 9 of the open 
recommendations are long-standing issues that were rolled-forward from 
prior year FISMA audits.
            1. Information Security Governance
    Information security governance is the management structure and 
processes that form the foundation of a successful information 
technology security program. Although the DHS FISMA reporting metrics 
do not directly address security governance, it is an overarching issue 
that impacts how the agency handles IT security and its ability to meet 
FISMA requirements, and therefore we have always addressed the matter 
in our annual FISMA audit reports.
    This is an area where OPM has seen significant improvement. 
However, some of the past weaknesses still haunt the agency today.
    In the fiscal year 2007 FISMA report, we identified a material 
weakness \1\ related to the lack of IT security policies and 
procedures. In fiscal year 2009, we expanded the material weakness to 
include the lack of a centralized security management structure 
necessary to implement and enforce IT security policies. OPM's Office 
of the Chief Information Officer (OCIO) was responsible for the 
agency's overall technical infrastructure and provided boundary-level 
security controls for the systems residing on this infrastructure. 
However, each OPM program office had primary responsibility for 
managing security controls specific to its own IT systems. There was 
often confusion and disagreement as to which controls were the 
responsibility of the OCIO, and which were the responsibility of the 
program offices.
---------------------------------------------------------------------------
    \1\ An IT material weakness is a severe control deficiency that 
prohibits the organization from adequately protecting its data.
---------------------------------------------------------------------------
    Further, the program office personnel responsible for IT security 
frequently had no IT security background and were performing this 
function in addition to another full-time role. For example, this meant 
that an employee whose job was processing retirement applications may 
have been given the additional responsibility of monitoring and 
managing the IT security needs of the system used to process those 
applications.
    As a result of this decentralized governance structure, many 
security controls went unimplemented and/or remained untested, and OPM 
routinely failed a variety of FISMA metrics year after year. Therefore, 
we continued to identify this security governance issue as a material 
weakness in all subsequent FISMA audits through fiscal year 2013.
    However, in fiscal year 2014, we changed the classification of this 
issue to a significant deficiency, which is less serious than a 
material weakness. This change was prompted by important improvements 
that were the result of changes instituted in recent years by OPM. 
Specifically, in fiscal year 2012, the OPM Director issued a memorandum 
mandating the centralization of IT security duties to a team of 
Information System Security Officers (ISSO) that report to the OCIO. In 
fiscal year 2014, the OPM Director approved a plan to further 
restructure the OCIO that included funding for additional ISSO 
positions. The OCIO also established a 24/7 security operations center 
responsible for monitoring IT security events for the entire agency; 
however, OPM has not yet implemented a mature continuous monitoring 
program.
    This new governance structure has resulted in improvement in the 
consistency and quality of security practices for the various IT 
systems owned by the agency. Although we are optimistic that these 
improvements will continue, it is apparent that the OCIO continues to 
be negatively impacted by years of decentralized security governance, 
as the technical infrastructure remains fragmented and therefore 
inherently difficult to protect.
            2. Security Assessment and Authorization
    A Security Assessment and Authorization (Authorization) is a 
comprehensive process under which the IT security controls of an 
information system are thoroughly assessed against applicable security 
standards. After the assessment is complete, a formal Authorization 
memorandum is signed indicating that the system is cleared to operate 
in the agency's technical environment.
    The Office of Management and Budget (OMB) mandates that all major 
Federal information systems have a valid Authorization (that is, that 
they have all been subjected to this process) every 3 years unless a 
mature continuous monitoring system is in place (which OPM does not yet 
have). Although, as mentioned, IT security responsibility is being 
centralized under the OCIO, it is still the responsibility of OPM 
program offices to facilitate and pay for the Authorization process for 
the IT systems that they own.
    OPM has a long history of issues related to system Authorizations. 
Our fiscal year 2010 FISMA audit report contained a material weakness 
related to incomplete, inconsistent, and poor quality Authorization 
packages. This issue improved over the next 2 years, and was removed as 
an audit concern in fiscal year 2012.
    However, problems with OPM's system Authorizations have recently 
resurfaced. In fiscal year 2014, 21 OPM systems were due for 
Authorization, but 11 of those were not completed on time and were 
therefore operating without a valid Authorization.\2\ This is a drastic 
increase from prior years, and represents a systemic issue of 
inadequate planning by OPM program offices to assess and authorize the 
information systems that they own.
---------------------------------------------------------------------------
    \2\ The OIG is the co-owner of one of these IT systems, the Audit 
Reports and Receivables Tracking System. This system has been 
reclassified as a minor system on the OPM general support system (GSS), 
and cannot be Authorized until the OCIO Authorizes the GSS.
---------------------------------------------------------------------------
    Although the majority of our FISMA audit work is performed towards 
the end of the fiscal year, it already appears that there will be a 
greater number of systems this year operating without a valid 
Authorization. In April, the CIO issued a memorandum that granted an 
extension of the previous Authorizations for all systems whose 
Authorization had already expired, and for those scheduled to expire 
through September 2016. Should this moratorium on Authorizations 
continue, the agency will have up to 23 systems that have not been 
subject to a thorough security controls assessment. The justification 
for this action was that OPM is in the process of modernizing its IT 
infrastructure and once this modernization is complete, all systems 
would have to receive new Authorizations anyway.
    While we support the OCIO's effort to modernize its systems, this 
action to extend Authorizations is contrary to OMB guidance, which 
specifically states that an ``extended'' or ``interim'' Authorization 
is not valid. Consequently, these systems are still operating without a 
current Authorization, as they have not been subject to the complete 
security assessment process that the Authorization memorandum is 
intended to represent.
    There are currently no consequences for failure to meet FISMA 
standards, or operate systems without Authorizations, at either the 
agency level or the program office level. The OIG simply reports our 
findings in our annual FISMA audit, which is delivered to OPM and then 
posted on our Web site. OMB receives the results of all FISMA audits, 
and produces an annual report to Congress. There are no directives or 
laws that provide for penalties for agencies that fail to meet FISMA 
requirements.
    However, at the program office level, OPM has the authority to 
institute administrative sanctions. This could be an effective way to 
reduce non-compliance with FISMA requirements. We recommended that the 
performance standards of all OPM major system owners include a 
requirement related to FISMA compliance for the systems they own. Since 
OMB requires a valid Authorization for all Federal IT systems, we also 
recommended that the OPM Director consider shutting down systems that 
were in violation. None of the systems in violation were shut down.
    Not only was a large volume (11 out of 47 systems) of OPM's IT 
systems operating without a valid Authorization, but several of these 
systems are among the most critical and sensitive applications owned by 
the agency.
    Two of the OCIO systems without an Authorization are general 
support systems that host a variety of other major applications. Over 
65 percent of all systems operated by OPM (not including contractor-
operated systems) reside on one of these two support systems, and are 
therefore subject to any security risks that exist on the support 
systems.
    Furthermore, two additional systems without Authorizations are 
owned by OPM's Federal Investigative Services, which is responsible for 
facilitating background investigations for suitability and security 
clearance determinations. Any weaknesses in the IT systems supporting 
this program office could potentially have national security 
implications.
    As I explained, maintaining active Authorizations for all IT 
systems is a critical element of a Federal information security 
program, and failure to thoroughly assess and address a system's 
security weaknesses increases the risk of a security breach. We believe 
that the volume and sensitivity of OPM systems that are operating 
without an active Authorization represents a material weakness in the 
internal control structure of the agency's IT security program.
            3. Technical Security Controls
    As previously stated, our fiscal year 2014 FISMA report contained a 
total of 29 audit recommendations, but two of the most critical areas 
in which OPM needs to improve its technical security controls relate to 
configuration management and authentication to IT systems using 
personal identity verification (PIV) credentials.
    Configuration management refers to the policies, procedures, and 
technical controls used to ensure that IT systems are securely 
deployed.
    OPM has implemented a variety of new controls and tools designed to 
strengthen the agency's technical infrastructure by ensuring that its 
network devices are configured securely. However, our fiscal year 2014 
FISMA audit determined that all of these tools are not being utilized 
to their fullest capacity. For example, we were told in an interview 
with OPM personnel that OPM performs monthly vulnerability scans on all 
computer servers using its automated scanning tools. While we confirmed 
that OPM does indeed own these tools and that regular scan activity was 
occurring, our audit also determined that some of the scans were not 
working correctly because the tools did not have the proper 
credentials, and that some servers were not scanned at all.
    OPM has also implemented a comprehensive security information and 
event management tool designed to automatically correlate potential 
security incidents by analyzing a variety of devices simultaneously. 
However, at the time of our fiscal year 2014 FISMA report, this tool 
was receiving data from only 80 percent of OPM's major IT systems.
    During this audit we also determined that OPM does not maintain an 
accurate centralized inventory of all servers and databases that reside 
within the network. Even if the tools I just referenced were being used 
appropriately, OPM cannot fully defend its network without a 
comprehensive list of assets that need to be protected and monitored.
    This issue ties back to the centralized governance issue I 
discussed earlier. Each OPM program office historically managed its own 
inventory of devices supporting their respective information systems. 
Even though the OCIO is now responsible for all of OPM's IT systems, it 
still has significant work ahead in identifying all of the assets and 
data that it is tasked with protecting.
    With respect to PIV authentication, OMB required all Federal IT 
systems to be upgraded to use PIV for multi-factor authentication by 
the beginning of fiscal year 2012. In addition, OMB guidance also 
mandates that all new systems under development must be PIV-compliant 
prior to being made operational.
    In fiscal year 2012, the OCIO began an initiative to require PIV 
authentication to access the agency's network. As of the end of fiscal 
year 2014, over 95 percent of OPM workstations required PIV 
authentication to access the OPM network. However, none of the agency's 
47 major applications required PIV authentication. Full implementation 
of PIV authentication would go a long way in protecting an agency from 
security breaches, as an attacker would need to compromise more than a 
username and password to gain unauthorized access to a system. 
Consequently, we believe that PIV authentication for all systems should 
be a top priority for OPM.
    Some of the other areas where we identified technical control 
weaknesses include:

  --Operating system baseline configurations;
  --Configuration change control;
  --Tracking the status of known security vulnerabilities;
  --Patch management;
  --Termination of idle VPN connections, and;
  --Continuous monitoring of security controls.

    Finally, there has been much discussion of the problems with 
securing OPM's systems, as they are old, ``legacy'' systems. While this 
is true in many cases, and many of OPM's systems are mainframe-based, 
some systems that were impacted by the breaches are in fact more modern 
systems for which most of the technical improvements necessary to 
secure them could be accomplished.
OPM's Modernization Project
    In April 2014, the agency began a full overhaul and modernization 
of its technical infrastructure, which will involve implementing 
additional IT security controls and then migrating the entire 
infrastructure to a completely new environment (referred to as the 
Shell). The OIG did not become aware of this project until nearly a 
year later, in March 2015, when we met with officials from the OPM's 
Office of the Chief Financial Officer and the OCIO to discuss questions 
related to the special $21 million funding request for this project 
contained in the President's fiscal year 2016 budget.
    On June 17, 2015, we issued a Flash Audit Alert detailing concerns 
related to project management as well as the use of a sole source 
contract for the entire project. One specific issue discussed in the 
Flash Audit Alert was funding for the project.
    OPM informed us that the current estimate for this project was 
approximately $93 million. However, after our auditors began their 
review, we learned that this cost estimate did not include the costs 
for migrating existing applications to the new Shell. That work is 
likely to be, by far, the most expensive part of the project. Migrating 
applications involves modifying all of the current systems--including 
all of the legacy systems that are frequently mentioned--so that they 
can operate in the new Shell environment. In 2009, OPM undertook a 
similar effort with its financial system application, and it cost $30 
million and took 2 years. There are approximately 50 major systems that 
have to be migrated to the Shell, and many smaller ones.
    Moreover, I am very concerned with the lack of an adequate funding 
plan for this project. Although there is a $21 million special request 
in the President's fiscal year 2016 budget, and DHS has committed $5 
million to the project, there is no comprehensive plan to fund the 
remaining costs of the project. Instead, we were told, in essence, that 
the OCFO would find the remaining funds somewhere, meaning a very heavy 
burden will fall upon program offices that are already stretched thin. 
The annual appropriations of program offices are meant to fund their 
core mission responsibilities, not subsidize a major agency-wide IT 
infrastructure project.
    This last issue has also become significantly problematic for our 
own office. Because we were unaware that OPM had undertaken this 
immense project, we were unable to include the related costs in our 
fiscal year 2016 budget request. The project will impose three types of 
costs upon us: (1) increased oversight costs, (2) the payment of the 
special assessment since we are a user of OPM IT services, and (3) the 
costs of modifying OIG-owned systems that reside on OPM's network so 
that they are compatible with the new IT environment.
Conclusion
    As discussed above, OPM has a history of struggling to comply with 
FISMA requirements. Although some areas have improved, such as the 
centralization of IT security responsibility within the OCIO, other 
problems persist. Until OPM's security weaknesses are resolved, OPM 
systems will continue to be an inviting target for attackers.
    If OPM's new modernization project is implemented appropriately, we 
believe that it will significantly improve OPM's IT operations, 
including its IT security posture. However, there are several issues, 
including significant budgetary concerns, which must be addressed. If 
they are not, we fear that there is a high risk this project will fail 
to meet its stated objectives.
    Thank you for your time and I am happy to answer any questions you 
may have.

    Senator Boozman. Thank you, Mr. Esser.
    Mr. Spires.

                 SUMMARY STATEMENT OF RICHARD A. SPIRES

    Mr. Spires. Good morning, Chairman Boozman, Ranking Member 
Coons, and members of the subcommittee.
    I'm honored to testify today. And since I served as the 
Chief Information Officer of the Internal Revenue Service (IRS) 
and later the Department of Homeland Security (DHS), I hope my 
in-the-trenches experience is of value regarding 
recommendations I will make on how the Federal Government can 
more effectively safeguard data and improve its cybersecurity 
posture.
    Most Federal Government agencies find themselves 
susceptible to data breaches and compromises of core mission IT 
systems because of three primary root causes.
    First, lack of IT management best practices. The very best 
cybersecurity defense is the result of managing your IT 
infrastructure and software applications well. But beginning in 
the 1990s and up to the present, the Federal Government has not 
properly managed IT, having failed to effectively adapt with 
the changes in IT technology and the evolving cybersecurity 
threat.
    As examples of these failures, when I served in Government, 
we would all too routinely discover IT systems outside of the 
IT organization's purview that have been deployed without the 
proper IT security testing and accreditation. The highly 
distributed approach to IT management across Government, and I 
would point out that Mr. Esser in his testimony already 
referred to decentralization within the OPM environment itself, 
has led to the deployment of thousands of data centers. Federal 
agencies struggle with managing and maintaining this dispersed 
infrastructure and disparate systems.
    The resulting complexity of vastly different systems and 
underlying IT infrastructures makes it virtually impossible to 
properly secure such an environment.
    Second, lack of IT security best practices. While well 
intentioned and appropriate for the time, the 2002 Federal 
Information Security Management Act (FISMA) skewed the approach 
for Government IT information security. The law forced the 
Chief Information Security Officers (CISOs) to look at the 
controls for individual systems, when in reality viewing 
systems in isolation hid the impact of larger enterprise 
security posture.
    Further, until very recently, systems would be certified 
and accredited based on a 3-year cycle, which is a significant 
issue when looking at the rapid evolution of technology in the 
cyber threat environments.
    Third, a slow and cumbersome acquisition process. When I 
was at DHS, I was a proponent of continuous diagnostics and 
mitigation, or the continuous diagnostics and mitigation (CDM) 
program. But it is dismaying to see how long it took, 2-plus 
years, just to implement phase one. That does not include the 
additional competitive process for an agency to obtain 
capabilities. Sophisticated adversaries will exploit any and 
all vulnerabilities. The Government is even more vulnerable 
when it takes months, not years, to be able to deploy new IT 
security capabilities.
    My recommendations to address these root causes: First, 
effectively implement the Federal IT Acquisition Reform Act, or 
FITARA. This law is meant to address the systemic problems in 
managing IT effectively, and the main intent of the law is to 
empower the agency CIO to address these issues.
    So far, I am pleased with the approach of the OMB and the 
new CIO Tony Scott are taking to support FITARA's rollout. 
Congress can support these efforts by demanding aggressive 
implementation of FITARA by agencies, development of measures 
for assessing FITARA's impact, and transparency in reporting 
ongoing progress.
    Effective implementation of FITARA is the Government's best 
hope to address decades of IT mismanagement.
    Second, drive adoption of IT security best practices. There 
has been positive movement with the updated FISMA law and the 
move to continuous monitoring. Yet I recommend the Government 
rethink how it is measuring success, with focus along three 
lines.
    There is a continuing need to pursue cybersecurity tools to 
prevent intrusion, but even more importantly, detect them 
quickly when intrusions do occur. Yet the Government needs to 
assume that sophisticated adversaries will still gain access.
    The root of all trust is verified identity, and the 
Government needs to step back and rethink how it is rapidly 
implementing ubiquitous use of multi-factor identity 
authentication, along with the behavioral detection systems to 
identify insider threats or compromise credentials.
    Finally, the Government needs to target additional 
protection of an agency's most sensitive information. Through 
focused effort and the use of available data protection 
technologies, the Government can attain high assurance that 
only the trusted parties have access to an agency's most 
sensitive information. This would go a long way toward 
thwarting additional major and damaging data breaches.
    Certainly, the data breaches at OPM are terrible for the 
Government and for those millions of us who may be negatively 
impacted in the future. However, this episode and the need to 
implement FITARA and the new FISMA law can be the impetus for 
much-needed and sustained change.

                           PREPARED STATEMENT

    It is critical to make enough progress during the next 18 
months to ensure that leadership commitment to needed changes 
in IT management and security are sustained into the next 
Congress and administration.
    Thank you for the opportunity to testify today.
    [The statement follows:]
                Prepared Statement of Richard A. Spires
    Good morning Chairman Boozman, Ranking Member Coons, and members of 
the subcommittee. I am honored to testify today in regards to the 
recent Office of Personnel Management (OPM) data breaches, while 
addressing issues and making recommendations regarding approaches on 
how the Federal Government can more effectively safeguard data and 
improve its cybersecurity posture.
    Serving as the CIO of a major department (DHS) as well as the CIO 
for a large bureau (IRS) in the Department of Treasury, I had ample 
opportunity to understand the dynamics inherent in Federal Government 
information technology (IT), including how Government agencies 
generally dealt with their IT security vulnerabilities. While at the 
IRS and DHS, I worked closely with the Chief Information Security 
Officers (CISOs) at both organizations to implement approaches that 
would address these security vulnerabilities. I also worked across the 
Federal Government on these issues, serving for a period as the Vice 
Chair of the Federal CIO Council and also as the Co-Chair of the 
Committee for National Security Systems. Given the gravity of this 
issue, I hope that my testimony is of value to Congress and the 
administration in helping to address systemic weaknesses in how the 
Federal Government protects data and its IT systems from compromise.
    Please note that I never worked at OPM and while I will allude to 
some of the alleged details of the recent OPM data breaches, my 
testimony describes broader systemic issues that must be addressed if 
we are to better protect our Government's data and IT systems. In fact, 
I would urge Congress and the administration to avoid a tactical 
approach that addresses narrow technical fixes based on these latest 
breaches--the weaknesses that led to these types of breaches are deeply 
rooted and require sweeping changes in our approach to IT and 
cybersecurity management and practices. Further, the weaknesses in the 
Federal Government's IT security posture are almost always based on IT 
practices that have been in place over many years. I served in the Bush 
and Obama administrations and saw the same systemic problems in both. 
This should not be viewed as a political issue, but a call to action to 
fix a set of issues that can not only have a beneficial impact on 
securing data and systems, but improve IT management and delivery of 
systems as well.
    My testimony will first focus on identifying the root causes that 
have led to a situation allowing massive data breaches of sensitive 
data and personally identifiable information (PII) to occur in 
Government. I will then provide a set of recommendations to address 
these root causes that can, based on my experience, be implemented over 
a 2-to-3 year timeframe. As I describe below however, there is a window 
of opportunity to drive these changes that Congress and the 
administration cannot afford to miss.
     root causes of it security and data protection vulnerabilities
    The situation in which most Federal Government agencies find 
themselves susceptible to data breaches and compromises of core mission 
IT systems, are the result of three primary root causes, which include:
1. Lack of IT Management Best Practices
    The very best cybersecurity defense is the result of managing your 
IT infrastructure and software applications well. During the decades of 
the 1970s and 1980s, agencies could build and deploy IT systems with 
little regard to security issues. This was not necessarily a management 
failure since there were very few security issues to be concerned with 
prior to the broad use of the Internet and the rise of the ubiquitous 
data networks. However, beginning in the 1990s and up to the present, 
the Federal Government has not properly managed its IT. The Government 
has failed to effectively adapt with the changes in IT and the evolving 
cybersecurity threat.
    As example of these failures, when I served at IRS and then at DHS, 
we would all-too-routinely discover IT systems outside of the IT 
organizations purview that had been developed and deployed without the 
proper IT security testing and accreditation. This highly distributed 
approach to IT management has led to the deployment of thousands of 
data centers across the Federal Government. Federal agencies today 
struggle with managing and maintaining this dispersed infrastructure 
and disparate systems. In far too many instances, hardware and software 
assets are not systematically tracked, software is not routinely 
updated and patched, and critical hardware and software has reached 
end-of-life and, in some cases, is no longer even supported by the 
vendors. And while I am big proponent of cloud technology, I am 
concerned that many agencies are not necessarily using cloud 
capabilities to streamline and simplify their infrastructure, but 
rather creating new IT ``stovepipe'' infrastructures. This complexity 
of maintaining a sea of vastly different systems in an ocean of 
differing underlying IT infrastructures makes it increasingly 
impossible to properly secure such a complex IT environment.
    Worse, when the Government did realize it had these issues and 
attempted to fix them, entrenched interests made it exceptionally 
difficult to effect the necessary changes. For instance, a number of 
laws have been passed that attempted to address IT management 
practices, most notably the Clinger-Cohen Act of 1996, which mandated a 
strong agency CIO that could begin to rationalize IT within an agency. 
Yet Clinger-Cohen is viewed as failed legislation in the Federal IT 
community since in reality, none of the agency CIOs have the authority 
granted by Clinger-Cohen. Components, Bureaus, and program offices have 
generally resisted efforts to bring more oversight and discipline to IT 
management and operations under the theory that it impedes mission and 
business progress for agencies. Unfortunately, we are paying a huge 
economic cost for those decisions resulting in inefficiency, 
duplication and unsecure IT systems and infrastructure. And what is now 
worse; we will likely pay a greater cost in the exposure of PII of 
millions of current and former Government employees, and potentially a 
cost to our national security.
2. Lack of IT Security Best Practices
    While well intentioned and appropriate for its time, the Federal 
Information Security Management Act (FISMA) skewed the approach for 
Government IT information security. Originally passed in 2002, it set a 
course for how IT security effectiveness has been measured in 
Government. While there are some good components of the law, the 
unintended consequence is that it forced CISOs to look at the controls 
for individual systems when in reality, IT systems across the 
Government were already becoming more interconnected and viewing 
systems in isolation hid the impact on the larger enterprise security 
posture. Further, based on OMB guidance, FISMA was implemented during a 
period when the cyber-threat was still emerging and the evolution of 
technology hadn't yet recognized the necessity of a security 
development lifecycle. In fact, until very recently, systems would be 
certified and accredited based on a 3-year cycle, which, while perhaps 
manageable, is comical when looking at the rapid evolution of 
technology and the cyber-threat environment. And furthermore, the law 
required the generation of paper-based reports, which diverted time, 
resources and personnel from effective security efforts. At both IRS 
and then DHS, I was consistently reluctant to put my confidence in the 
yearly FISMA report since it did not reflect the reality of the true 
security posture of our overall IT environment. That can only be done 
by proper use of tools that continuously monitor the IT environment and 
are able to react and mitigate threats in near-real time.
3. Slow and Cumbersome Acquisition Process
    The problem is exacerbated for Government when funds are available 
to invest in IT security, yet it is ponderously slow and difficult to 
buy commercial solutions to help address vulnerabilities. When I was at 
DHS, I was a proponent of the continuous diagnostics and mitigation 
(CDM) program, but it was dismaying to see how long it took (2 plus 
years) just to implement Phase 1, and then for agencies to go through 
an additional competitive process within the CDM program itself to 
obtain capabilities. I am all for fair competition, but with 
sophisticated adversaries that will exploit any and all 
vulnerabilities, the Government is even more vulnerable when it takes 
many months (if not years) to be able to deploy new IT security 
capabilities.
    recommendations for addressing it security and data protection 
                            vulnerabilities
    Clearly the Federal Government's overall IT security posture is 
poor, yet there is some momentum building that can result in 
fundamental changes that greatly improve that posture over a couple of 
years. While it is disappointing to have such large and damaging data 
breaches occur at OPM, I hope that the Congress and the administration 
use this opportunity as a call to action for needed IT and IT 
procurement reform. Below are four recommendations to address the root 
causes for the IT security and data protection vulnerabilities outlined 
above.
1. Effectively Implement the Federal IT Acquisition Reform Act (FITARA)
    In December 2014 Congress passed and the President signed FITARA, 
which was included in the 2015 National Defense Authority Act (NDAA). 
FITARA is meant to address the systemic problems in managing IT 
effectively in an agency and while there are a number of provisions, 
the main intent of the bill is to empower the agency CIO to address 
these problems. Foremost of these problems include duplication of IT 
infrastructure and systems, lack of the use of best practices in IT 
acquisition, and the implementation of proper procedures to ensure IT 
security is properly addressed throughout an agency's IT organization 
and infrastructure.
    To ensure that FITARA does not suffer the same fate as Clinger-
Cohen, a successful roll-out within agencies is critical. I am very 
pleased to see the approach OMB and the new Federal CIO, Tony Scott, 
are taking to support this roll-out. OMB just issued its final guidance 
to agencies for implementation of FITARA. In developing this guidance, 
OMB sought significant outside input, including guidance from former 
Government CIOs, CFO, CAOs, CHCOs, and COOs and importantly, OMB asked 
for public comment on this draft guidance, which will improve content, 
understanding, and buy-in over the longer term.
    I recently testified at a hearing on FITARA and its role in 
improving IT acquisitions to the subcommittees for Information 
Technology and Government Operations of the House Committee on 
Oversight and Government Reform.\1\ I am not going to repeat much of 
that testimony, but I want to highlight the following:
---------------------------------------------------------------------------
    \1\ Richard Spires written testimony for that hearing is available 
at https://oversight.house.gov/wp-content/uploads/2015/06/Spires-
Statement-6-10-FITARA.pdf.

        ``In terms of accountability, it has to start with the 
        Administration and rests with OMB and the agencies. In 
        particular, OMB must help ensure that the agency CIOs have the 
        capability to perform their job and have the support from 
        agency leadership to give them the chance to drive the required 
        change to effectively implement FITARA. Further, the agency 
        leadership must be supportive of the agency CIO, having the 
        individual's back, particularly in agencies that are operating 
        in a federated environment
        (this is particularly an issue in the cabinet-level 
        departments). Congress . . . can support these efforts by 
        demanding aggressive implementation of FITARA by agencies, 
        development of measures for assessing FITARA's impact, and 
        transparency in reporting of ongoing progress, while also 
---------------------------------------------------------------------------
        highlighting obstacles in agencies to be overcome.''

    There is much confusion regarding IT security and the best way to 
protect data and systems. There is no single product or service that 
offers complete protection, and in my experience, without IT management 
best practices implemented across an agency, many of the security tools 
are simply ineffective. IT management best practices are foundational 
to success, and effective implementation of FITARA is the Government's 
best hope to address decades of mismanagement.
2. Drive Adoption of IT Security Best Practices
    To the Government's credit, there has been a fairly aggressive 
shift in thinking from the traditional FISMA reporting approach to 
continuous monitoring of IT systems and the overall IT environment. I 
was also pleased to see that Congress passed much needed reform in the 
FISMA Modernization Act of 2014 last December, and I hope Congress will 
closely work with the executive branch to ensure that implementation 
delivers enhanced security.
    That being said, when I look at the current Cross-Agency Priority 
(CAP) cyber-security goals,\2\ I feel the Government is still behind 
current IT security best practices. For example, if you look at the 
overall objectives, the CAP goals will typically consider objectives of 
less than 100 percent as success, such as 95 percent for automated 
asset management or 75 percent for strong authentication. Higher 
numbers are certainly better than lower ones in these metrics, but we 
are dealing with adversaries that are advanced and persistent, that 
will almost certainly find the holes and exploit them--it is simply a 
matter of time. Likewise the Einstein system can aid agencies in 
detecting threats, and the promise of Einstein 3A is the proactive 
blocking of malicious traffic. However, Einstein is only helpful if the 
traffic is actually going through the system--in many agencies today, 
there are Internet connections that are not monitored by Einstein and I 
posit that this is another example of poor IT management. The 
Government has invested hundreds of millions of dollars in the Einstein 
program yet agencies continue to posture and delay implementation. In 
effect, these approaches have led the Federal Government to establish a 
virtual ``Maginot Line'' as its key IT security strategy.
---------------------------------------------------------------------------
    \2\ A description of the CAP cybersecurity goals and the status can 
be found at http://www.performance.gov/node/3401/
view?view=public#overview.
---------------------------------------------------------------------------
    Based on the current situation and what I see evolving in the 
cybersecurity industry, I recommend a rethinking of how we are 
measuring success, with focus along three lines:

  --There is without a doubt a continuing need to pursue cybersecurity 
        tools to prevent intrusions, but perhaps even more importantly, 
        detect them quickly when intrusions do occur. The Einstein 
        program identifies and protects against known ``signatures'' or 
        characteristics of malicious activities, thereby preventing 
        those intrusions. However, more advanced protective 
        capabilities are required to prevent intrusions that the 
        Government is not yet aware of, thereby further reducing the 
        Government's attack surface. With enhanced automated 
        protection, network defenders can then focus on detecting and 
        remediating only the most sophisticated and potentially 
        dangerous attacks--rather than trying to decide which of the 
        seemingly endless alerts to pursue today. The cybersecurity 
        industry has made great strides in these areas in the last few 
        years, and Government should be using the most advanced tools 
        for prevention and detection that leverage threat intelligence 
        from users all over the world.
  --Even with the most advanced prevention tools, the Government needs 
        to assume that sophisticated adversaries will still gain 
        access. So alternative approaches are needed, and in 
        particular, ones that relies on creating more trust in online 
        interactions. The root of all trust is verified identity. I 
        must know that it is who I believe it to be, and in the online 
        world, multi-factor authentication methods are key to doing 
        that. There are a plethora of newly available technologies to 
        enable multi-factor authentication for both internal 
        (Government) as well as external users. And some of these 
        solutions can integrate with antiquated systems. The Government 
        needs to step back and rethink how it very rapidly implements 
        ubiquitous use of multi-factor identity authentication. Even 
        though the root of trust is identity, there is more to the 
        trust equation. In the ``physical'' world, I trust another 
        because I have high confidence they will act in a manner that I 
        expect. Some of the most damaging data breaches have come from 
        individuals that where properly authenticated and authorized to 
        use systems and access data. Their behavior, however, was not 
        in keeping with what was expected. This is commonly called the 
        insider-threat problem. There are new technologies and 
        capabilities today that can bring in other context, such as an 
        audit log or behavioral analysis systems to assess someone's 
        trustworthiness on a regular basis. These additional factors, 
        beyond those used to assess authenticity, are key to fully 
        establishing and monitoring trust.
  --Finally, the Government needs to target additional protection of an 
        agency's most sensitive information, whether it be data sets or 
        documents. Tools and products exist that enable agencies to 
        protect information, independent of the likely insecure 
        environment in which they operate. Agencies should focus on 
        their most valuable information. I do recognize that there are 
        limitations given some of the antiquated systems in which such 
        information resides, but by focusing efforts on the most 
        sensitive information, the Government could ensure, within two 
        to 3 years, that only trusted parties have access to an 
        agency's most sensitive information. This would go a long way 
        toward thwarting additional major and damaging data breaches.
3. Attract, Train, and Retain Talented Cybersecurity Professionals
    Even the best cybersecurity tools in the world require talented 
people who know how to use them. The shortage of cybersecurity 
professionals across the country continues to be significant problem. 
This is particularly an acute problem for the Federal Government. While 
the mission is very attractive to many cyber professionals, the hiring 
process and compensation models are not competitive with what 
individuals can make in the private sector. Even with direct hiring 
authority, the Government is not getting the talent it needs. The 
Government needs more investment in training for current staff and the 
flexibility to hire that is competitive with the private sector. I do 
commend Congress for incorporating new flexibility for DHS to hire and 
pay cyber professionals into S.1691 also passed last December. Congress 
should monitor how DHS uses this authority, and consider expanding the 
authorities to other departments and agencies to help address the 
Government's cybersecurity personnel shortage.
4. Develop a Streamlined IT Cybersecurity Acquisition Process
    It is difficult to implement state-of-the-art IT cyber security 
solutions if you have no way to rapidly evaluate them before 
purchasing. The CDM and Einstein programs could potentially serve as 
governmentwide vehicles for this process, but it has taken significant 
time to put them in place and I recommend an approach that enables 
individual agencies to rapidly bring in solutions and try them in a 
test-bed environment. After thorough testing and based on what works 
best, agencies should be able to roll security solutions into 
production. This approach would ideally encompass traditional 
cybersecurity vendors, but also new vendors that have little to no 
Government experience--they are an incredible source of technical 
innovation. The Government is simply not getting the best solutions 
through the existing acquisition process. I recommend that Office of 
Federal Procurement Policy (OFPP) work with the General Services 
Administration (GSA) and DHS to put a more streamlined CDM in place--
one that would enable rapid addition of new capabilities as they become 
available in the commercial market.
                               conclusion
    Certainly the data breaches at OPM are terrible for the Government 
and for those millions of us that may be negatively impacted in the 
future. Viewed through the right lens however, this episode can be the 
impetus for much needed and sustained change. And given the need to 
implement FITARA, the current administration has a golden opportunity 
to set the correct foundation for success moving forward. This should 
not be viewed as a political issue but rather requires sustained 
leadership focus and commitment, and I am pleased to see such 
leadership currently coming from both Congress and the administration. 
It is critical to make enough progress during the next 18 months to 
ensure that leadership commitment to FITARA, FISMA Modernization and to 
other needed changes in IT security are sustained into the next 
Congress and administration.
    Thank you for the opportunity to testify today.

    Senator Boozman. Thank you, Mr. Spires, for your testimony.
    At this time, we had planned on proceeding with our 
questioning. Each Senator will have 7 minutes. I hope we have 
time to accommodate two rounds of questioning.
    We have a vote called right now. It is only one vote. So 
what we would like to do is suspend, allow members to vote, and 
then come back and start immediately with the question period.
    With that, we will adjourn.
    [Recess.]
    Senator Boozman. The committee will come to order. Again, I 
apologize for the delay. The only thing we have to do around 
here is vote, and so there is just no way of knowing. You 
schedule these things and, certainly, that trumps everything, 
which it should.
    Director Archuleta, according to news reports about the 
second OPM breach pertaining to OPM's security clearance 
system, hackers had access to sensitive data for a year. These 
systems contain extensive personal and family financial 
information for current, former, and perspective Federal 
employees and contractors.
    Will a notification be provided to individuals whose 
information was potentially compromised in the latest breach?

                              NOTIFICATION

    Ms. Archuleta. Yes, sir. We are working on determining the 
scope of that breach, even as we speak. And as we determine 
that, at the same time, we are developing a notification 
process to reach those individuals.
    We are taking into account what we have learned from the 
first notification and looking at the wide range of options we 
would have in that notification process.
    Senator Boozman. Will notifications be provided to family 
members and other individuals whose information was contained 
in the security clearance system solely due to their 
relationship with the security applicant?
    Ms. Archuleta. Sir, I can say that we are taking into 
consideration all of the individuals that were affected by this 
breach. As that notification plan is developed, I would welcome 
the opportunity to come up and detail it for you.
    Senator Boozman. How did you decide that 18 months of 
credit monitoring and identity theft insurance is sufficient 
protection for affected Federal employees?
    Ms. Archuleta. This is an industry best practice. We are, 
again, in the second notification really examining that to see 
what the range of options may be.
    Senator Boozman. Will OPM offer the same protection to 
individuals whose information was stored on security clearance 
databases, or does this heightened level of compromised 
information warrant additional protections?
    Ms. Archuleta. Again, sir, this is what we are looking at 
with our partners across Government to make sure that we 
examine the wide range of options that we need to consider.
    Senator Boozman. What additional steps do you plan to take 
to protect the victims, given the long-term effects these 
breaches pose?
    Ms. Archuleta. We are looking at steps we can take to 
protect their data including the notification process. I am as 
upset as they are about what has happened and what these 
perpetrators have done with our data. So we are examining not 
only the notifications that we must do, but also the 
protections and the remedies we must put in place.
    Senator Boozman. Those are important questions. Those are 
the kinds of things we are getting from our Federal workers. I 
know you will have a lot more other questions related to that. 
But it is so important that we try to get information to those 
that have been affected.
    Ms. Archuleta. I understand.
    Senator Boozman. Mr. Spires, the administration has ordered 
a 30-day sprint to perform vulnerability testing and to patch 
security holes. Is 30 days sufficient time to correct more than 
a decade of negligence of outdated systems and failed attempts 
at modernization?
    Mr. Spires. I'm sure you would not be surprised for me to 
say no, it is not sufficient time to fix the systems and the 
situation we find ourselves in.
    I think it is a good thing, though, to put in place a 
process by which planning should take place, so that we can 
start to get our arms around what should be done agency by 
agency to put us in a much better posture.
    Senator Boozman. As we get into these things, Mr. Spires 
and Mr. Esser, do you expect us to find significant problems as 
far as breaches with the other agencies?
    Mr. Spires. First, I should say you will find significant 
problems with them not following IT security best practices, 
including FISMA, and not that that alone would necessarily 
indicate breaches. But given the situation we find ourselves in 
across most Federal agencies, I would expect you to find 
significant breaches, yes.
    Senator Boozman. Mr. Esser.
    Mr. Esser. I would concur with Mr. Spires.
    We have been seeing breach after breach this year, health 
insurance companies, background investigations, contractors, 
and Government entities, so it would not surprise me to see 
more.
    Senator Boozman. Mr. Spires, again, looking at the scope of 
the problem, how long do you feel like it will take the 
Government to actually do things we need to do to protect 
ourselves from these outside threats?
    Mr. Spires. Well, let me say, I think we should take an 
ordered approach to this problem. So in my mind, what agencies 
should first be doing is identifying the sensitive datasets 
they have and putting those in some type of bucketed priority 
order, and coming up with plans to protect those sensitive data 
sets.
    The reason I say it that way is to think that we can go 
into these large agencies that have, as I said, decades of 
mismanagement and essentially decentralized IT and fix that 
quickly I think is just naive. So this notion of doing it by 
protecting sensitive data sets, then there is data technology 
today and encryption and the like, to do that at the data set 
or document level. And then also, you have to worry about the 
identity problem. It does no good if you have encrypted the 
data, but then the credentials of someone that can get to the 
data have been compromised. So you also need to work on the 
identity problem.
    That is where things like multi-factor authentication 
models come in, which, by the way, there are many new 
technologies that make this much faster and easier to roll out 
than it was 4 or 5 years ago.
    Also, this notion that says even if someone has been 
authenticated and authorized, that doesn't necessarily mean 
their behavior is correct, right? The insider threat problem, 
we have to watch that.
    So this notion of starting to bring in behavioral detection 
systems or ways in which we can monitor the behavior of, 
particularly, privileged users. Those that have root access to 
the systems and data are the ones that, frankly, we need to 
monitor.
    Senator Boozman. Very good.
    Director Archuleta, we have heard numerous accounts of 
frustration with CSIdentity Corporation (CSID), including long 
wait times, repeated Web site crashes, and inaccurate 
information reported to victims. What steps are you taking to 
oversee the services provided by the contractor?

                          CONTRACTOR OVERSIGHT

    Ms. Archuleta. CSID has tremendous experience in these 
types of notifications. The served Sony, as you know, with 
their large breach. We believe they have the capability and 
capacity to handle this.
    Senator Boozman. But when you call in now, the wait times 
are very, very long. I don't know that they have experienced 
anything of this magnitude.
    Ms. Archuleta. Thank you, sir. I am as angry as you are 
about that. I want to be sure they are doing everything they 
can to reduce wait times. That is why I have instructed my CIO 
and her team to work with that contractor to improve daily the 
services they are giving to our employees.
    An employee should not have to experience that. That is why 
we are demanding from our contractor that they improve their 
services.
    I do believe, sir, because of the conflation of two 
incidences, that we have had an unusual high number of phone 
calls. But that is not an excuse. Our contractor should be able 
to perform to that number, and we are demanding that it do so.
    Senator Boozman. Thank you.
    Senator Coons. Thank you, Chairman Boozman.
    Ms. Archuleta, if I might, if OPM had completed its planned 
IT upgrades, would this breach have been prevented? Would these 
consequences have been prevented?
    And if OPM had been in full compliance with FISMA, would 
any of the breaches in 2014 or 2015 still have occurred?

                              IT UPGRADES

    Ms. Archuleta. My CIO has advised me that even if there had 
been 100 percent FISMA compliance, there is no guarantee that 
systems won't get breached. That is why an IT strategic plan 
and the implementation of an IT plan is so important. Risk 
management is the answer to what we need to do. We need to be 
able to detect and mitigate. That is what our plan is designed 
to do, as we move from a legacy system to the new shell system.
    Yes, I believe we need to act very rapidly to move from 
this decades-old system to a new system. We need to make sure 
that we are tracking, documenting, and justifying all we do. 
But we also need to be sure we are acting as quickly as we can 
to protect the records that have been entrusted to us.
    Senator Coons. Ms. Archuleta, of all of the Federal 
employees who have been affected, as the co-chair of the Senate 
Law Enforcement Caucus, I am particularly concerned about 
Federal law enforcement officers and their families, because 
they have credible reasons to be concerned. The criminals they 
previously apprehended or investigated might have motivation to 
seek out their homes or their families.
    What are you doing specifically to promptly respond to 
their concerns or inquiries? Not to suggest they're the only 
folks with real concerns, but in some ways they are one of the 
subsets of Federal employees who I think have very real, very 
legitimate and pressing concerns.
    Ms. Archuleta. On the top line, what I can assure you, 
Senator, is that we are working across Government to analyze 
the scope of this breach. We will be able to discuss more with 
you in the classified session.
    But I can tell you that we are working very closely with 
our law enforcement partners.
    Senator Coons. I am eager to follow up with you on that and 
to get some reassurance about the swiftness with which gravely 
concerned Federal employees of all backgrounds are able to get 
updates and more information about their path forward.
    Your fiscal year 2016 budget request was submitted before 
the discovery of the most recent incident and before we had any 
sense of the scope. Are there additional tools or enhancements 
that you need in order to deal with the critical issues that 
are now well and widely known? And how might you seek an 
amendment to the budget request?

                               IT FUNDING

    Ms. Archuleta. Thank you, Senator, for that question.
    We are analyzing right now with OMB and my CFO to determine 
what the request might look like. I hope to be able to get back 
to you by the end of the week.
    Senator Coons. Thank you.
    Last question for you, if I might: If you had actually 
encrypted Federal employees' Social Security numbers or their 
personally identifying information, would that have prevented 
the disclosure of their personally identifiable information to 
hackers once they compromised the system?

                               ENCRYPTION

    Ms. Archuleta. This is a question that has been asked of my 
colleagues who are experts in cybersecurity. They have informed 
me that in this particular case, the encryption would not have 
prevented the breach.
    Encryption is an important tool, and that is why we 
continue to build the encryption methods within our system. But 
in this particular case, it would not have prevented it.
    Senator Coons. My question was not whether it would have 
prevented the breach. It was whether it would have prevented 
the accessibility and use of personally identifying information 
once the system was breached.
    Ms. Archuleta. No. It would not have in this case.
    Senator Coons. In response to the question about FISMA 
compliance and if IT upgrades had been completed and 
encryption, Mr. Spires, Mr. Esser, any difference of opinion or 
any insights you might offer for us about FISMA and whether 
FISMA compliance would have produced a different outcome here?
    Mr. Spires. As I stated in my verbal testimony, sir, the 
issue with FISMA, the old FISMA 2002 law, was that it was 
really around a set of technical controls that would be checked 
every 3 years. Given the environment we live in, that is just 
not even close to being appropriate.
    We are moving toward a continuous diagnostics model, which 
is the correct model, where you are monitoring all of your 
systems and monitoring your complete environment, looking for 
intrusions, looking for improper behavior.
    But I would even echo the point that even that is not 
enough in today's environment. You need to bring in the data 
protection, like encryption capabilities, and you need to 
upgrade the capabilities to better understand who is actually 
accessing your system.
    Those are all critical necessities in order to protect data 
today.
    Senator Coons. Would it be reasonable for us to have 
expected that OPM could achieve data security given the 
resources they currently have available to them?
    Mr. Spires. I am not sure I'm in a good position to answer 
that question. I will go back to my point of a focused effort 
on protecting sensitive data with the right encryption and the 
right access control capabilities. If you put the focus there, 
I think most Federal agencies would have the funds, have the 
resources to be able to accomplish that.
    Senator Coons. We have seen significant data breaches for 
Home Depot, JPMorgan, Target, Sony, Neiman Marcus, just to name 
a few. Many of them have invested in cutting-edge cybersecurity 
and systems.
    Is the private sector having any more success in mitigating 
cyber breaches than the public sector is?
    Mr. Spires. I don't know if I would make a sweeping comment 
on that. I think it depends a lot on the actual company, and it 
varies greatly. I would make another point here.
    I think one of the big differences between the Government 
and the private sector is that the private sector has the 
ability to very rapidly acquire the newest capabilities that 
are being offered by the cybersecurity, if you will, product 
companies or industry.
    One of the things I would like to see is the Government 
agencies being able to bring in, in a test-bed environment, be 
able to pilot new capabilities as they come to market. That 
would really help Government agencies to adopt the newest 
capabilities.
    Senator Coons. You referenced in your previous testimony 
the Federal IT Acquisition Reform Act (FITARA) and your 
concerns about slow and cumbersome procurement, and I look 
forward to exploring that further with you in the next round of 
questions.
    Thank you, Mr. Chairman.
    Senator Boozman. Senator Lankford.
    Senator Lankford. Thank you all for being here. We have a 
lot to cover to be able to help not only resolve things for the 
future, but also be able to unpack fully what has happened in 
the past.
    Mr. Esser, there are several comments that you made on it. 
What is the most pressing issue that you have discovered in the 
flash report you have done, based on the vulnerabilities that 
still exist and what needs to be finished?
    I am not asking you to expose publicly vulnerabilities that 
still exist, but on the list, how many things still need to be 
addressed and need to be addressed immediately?
    Mr. Esser. Senator, I think one of the most important 
things that needs to be addressed is the two-factor 
authentication to access systems. This has been a longstanding 
problem at OPM. They have made improvements. They have 
implemented this to affect workstation access. But the actual 
systems that are being used by employees need to be implemented 
also and require two-factor authentication.
    Senator Lankford. I saw from your report and, quite 
frankly, the Chief Information Officer had also listed the same 
thing in 2012.
    Let me just read this real quickly. The initiative to 
require personal identity credential authentication to access 
the agency network, as of the end of 2014, 95 percent of OPM 
workstations required personal identity verification access for 
the network. However, none of the agency's 47 major 
applications require personal identity verification 
authentication.
    Is that still correct?
    Mr. Esser. To the best of our knowledge, it still is.
    Senator Lankford. Ms. Archuleta, tell me about that and 
just the process of transition.

                           IG RECOMMENDATIONS

    Ms. Archuleta. Yes, two points there. The multifactor 
authentication for remote users, we are 100 percent at that 
point now. With regard to all other users, we are working very 
rapidly to increase that. I have asked my CIO to increase that 
effort. I'm sorry I don't have the percentages in my mind right 
now, but I would be glad to get back to you where we stand as 
of this date.
    But I do know we are working rapidly to do that.
    Senator Lankford. A 95 percent figure you think is pretty 
close as far as the workstations, 100 percent for those working 
remote, 95 percent of workstations, but it is still these 47 
major applications that are still exposed, I guess?
    Ms. Archuleta. I would like to get back to you, Senator, on 
that, to give you the full details on that.
    Senator Lankford. Okay. Then there is a question on the 
issue of security assessment and authorization.
    Obviously, that is a requirement from OMB. This ongoing 
issue of these 47 different groups that are here, it says 11 
were not completed or time or were operating without a valid 
authorization.
    What can you tell me about that?
    Ms. Archuleta. I can tell you that all but one of those 
systems has been authorized or extended. They are operating 
with authorization, and we are working on the final one that 
was with the contractor.
    Senator Lankford. There is a systemic problem there, 
obviously, of trying to find out why they weren't already 
through the authorization, to make sure that authorization is 
done on time and on schedule. Has that issue been fixed?
    I know rapidly people stepped in and said, okay, let's try 
to fix this, where the authorizations haven't been done. What 
about the process for future, to make sure those continue to be 
done on time?
    Ms. Archuleta. I would like to have my CIO get that 
information so I could give it back to you, sir.
    Senator Lankford. I'll be glad to have that. Give me a 
timeframe when I can get that back.
    Ms. Archuleta. By the end of the week, sir.
    Senator Lankford. That would be great.
    There is also an outstanding letter that I sent to your 
office June 10. I am the chairman of the Committee on Homeland 
Security Governmental Affairs that has the Federal workforce in 
it, as you and I have discussed in the past.
    On June 10, I sent a letter that has yet to be acknowledged 
from your staff that they have received that letter, much less 
get an answer to it. There were some very basic questions that 
are still unanswered on it, none of them that would require a 
classified setting. But there are some basic responsive 
answers.
    I have letters already on the record from the Federal 
Aviation Administration (FAA), for instance, and a tremendous 
number of employees that live in my district that have asked 
just some very basic questions. The folks from GE have asked 
some very basic questions. They have yet to get a response even 
to say it has been acknowledged. They just want to know some 
timing.
    I know the letters have gone out nationwide. But people 
want to know there is actually somebody working on some of 
these other issues because there will be many for a while.
    Ms. Archuleta. Senator, I apologize to you if you have not 
received that response. I know that I have asked my staff to 
respond to that, and I know that it is forthcoming. But I will 
make sure you have that letter today.
    Senator Lankford. Great. Thank you.
    Let's talk a little bit about cost issues dealing with the 
appropriations side.
    Do we have a ballpark cost to OPM yet, the letter that has 
gone out to contact everyone to let them know, hey, possibly 
your information has been breached?
    There are really two cost factors sitting out here that our 
committee has to consider. One is the cost of distributing that 
letter out to all those individuals. The second one is the cost 
for the credit report, credit screening and protection that is 
happening, that has been extended.
    Do you have a cost estimate for those two?

                             CONTRACT COST

    Ms. Archuleta. I have a general cost as we take a look at 
the take-up rate on credit monitoring, that will adjust it, but 
it is approximately anywhere from $19 million to $21 million.
    Senator Lankford. Okay, so $19 million to $21 million.
    And then what is the estimated cost on just the letter 
going out?
    Ms. Archuleta. That is the total cost, sir, between emails 
and letters, so I do not have the breakdown. I would be glad to 
get that for you.
    Senator Lankford. Are you aware that some agencies, 
actually the Web site you link people to to get more 
information, some agencies have actually blocked that 
internally. So those individuals when they try to go are 
blocked for fear there may be phishing scams that are going on.
    So have you started working with other agencies on that?
    Ms. Archuleta. Yes, we worked closely with departments and 
agencies because of some security protocols they might have. So 
we worked closely with them and their CIOs and other top 
officials.
    Senator Lankford. Finally, this issue of the inventory of 
servers and databases and different workstations that are out 
there, the central control issue is important, obviously, for 
keeping up security and technology upgrades, and making sure 
software is continually upgraded, and everyone has a consistent 
security presence there.
    When there is a server there, it creates tremendous 
vulnerabilities. They just have to find one of those.
    How is that going with unifying that structure, because 
that is not a legacy issue. That is more just an inventory 
issue.
    Ms. Archuleta. I respect the inspector general's opinion on 
this, but my CIO has told me that we have indeed have an 
inventory of system and data, and I would welcome the 
opportunity to discuss this with you and with him further.
    Senator Lankford. Great. We will look forward to getting 
that report and getting a chance to find out more about that.
    Ms. Archuleta. Thank you, Senator.
    Senator Lankford. That is one of those significant 
vulnerabilities.
    Ms. Archuleta. Thank you, sir.
    Senator Moran. Mr. Chairman, thank you and Senator Coons 
for conducting this hearing.
    Welcome to our three witnesses.
    Ms. Archuleta, I am going to begin with you. I just have a 
series of questions that I hope are relatively short responses. 
I will work my way through them as quickly as I can.
    What is the current estimate of the total number of files 
or employees breached?

                                OPM DATA

    Ms. Archuleta. In the employee personnel files, we estimate 
that to be a little over 4 million.
    Senator Moran. At least according to press reports, those 
numbers may grow. What else may occur? What may you discover?
    Ms. Archuleta. It is an ongoing investigation. We will 
continue that investigation with our partners. At this point, 
we know it is a little over 4 million.
    Senator Moran. Are those words interchangeable, 4 million 
employees and 4 million files? Does that mean the same thing?
    Ms. Archuleta. That is approximately 4 million people who 
have been affected by it.
    Senator Moran. What is the total possible for the number of 
employees affected? You say we estimate it today to be 4 
million and it may grow. What is the maximum number of files 
that could have been breached?
    Ms. Archuleta. I want to separate incident one and incident 
two. So incident one is the one I am describing, the employee 
personnel files. We have estimated that to be a little over 4 
million, as I have described.
    Senator Moran. But what is the total number of employees 
that could be affected by that?
    Ms. Archuleta. That is the number.
    Senator Moran. That is the number?
    Ms. Archuleta. That is the number.
    Senator Moran. All right.
    Ms. Archuleta. So as we look at the second incident, we 
have not determined the scope of that. I don't have a number 
for you on that.
    Senator Moran. How many files do you have management over?
    Ms. Archuleta. As you know, a Federal background 
investigation file may have a number of different names and 
Personally Identifiable Information (PII) within it. That is 
why I cannot give you a specific number on that one.
    We are working, as I said, to get that number. I will bring 
it to you as soon as I have it.
    Senator Moran. Let me ask this one more time to make sure 
that you and I are on the same page.
    Ms. Archuleta. Okay, I apologize if I am not fully 
understanding.
    Senator Moran. No, it may be inarticulation on my part.
    You have a certain number of files within your agency 
subject to this kind of breach. What is the total number of 
files that potentially could be breached?
    Ms. Archuleta. That is what we are investigating right now, 
sir.
    Senator Moran. Let me ask it this way, how many files are 
there at OPM?
    Ms. Archuleta. Well, there are millions of files. We are a 
data center, so there are millions of files. The forms SF-86 or 
the background investigations contain numerous names. That is 
why I want to be careful to make sure the number I do give to 
you I'm confident about.
    Senator Moran. All right.
    You indicated you have taken significant steps. I wrote 
that down as part of your testimony. ``We have taken 
significant steps.'' Yet the OIG says that only three of 29 
recommendations have been closed. Let me look at his testimony. 
``Only three of these 29 recommendations have been closed to 
date. Nine of these open recommendations are longstanding 
issues that were rolled forward from prior year FISMA audits.''
    How do you reconcile, ``We have taken significant steps,'' 
and yet the OIG report says there are longstanding problems and 
only three of 29 have been addressed?

                           IG RECOMMENDATIONS

    Ms. Archuleta. We work very closely with our IG. As I said 
before, we work with him to make sure that we have complete and 
open transparency with him. We meet on a regular basis. He 
continues to assist us in identifying the areas of improvement. 
And the issues he has brought to us, we are working through.
    The 2014 audit that he performed for us and provided to us, 
we are working through the steps that he has outlined for us. I 
know we are not in agreement with all of them, but we do 
believe that the conversation and the transparency that we have 
between us will be helpful for resolving all of them.
    Senator Moran. Mr. Esser, do you agree with Ms. Archuleta 
that the agency has taken significant steps to correct its 
problems?
    Mr. Esser. Yes, I do. I think that they have made great 
strides over the years to improve some of the issues we have 
reported.
    For example, the decentralization issue, which went back to 
2007, in this past year's FISMA audit, we decreased the 
severity of that finding from a material weakness to a 
significant deficiency.
    In addition, there are a number of other areas where they 
put in tools and made strides to improve security.
    With that said, there are a number of longstanding issues 
in our FISMA reports that are open and that we hope to see 
movement on.
    Senator Moran. Mr. Spires, let me give you an opportunity. 
If you were still in the former capacity at this agency instead 
of the IRS or Homeland Security, let me first start with a 
broader question. Based upon your understanding of the facts 
involved here and your best judgment, was the breach or 
breaches that have occurred at OPM, were they predictable, 
based upon what we knew, looking at, for example, the OIG 
report? If you saw those reports, is this an outcome that could 
be expected?
    Mr. Spires. I think it is an outcome that could be 
expected, sir.
    Senator Moran. Do you have a sense based upon either Ms. 
Archuleta's testimony or your independent knowledge and what 
you have heard of Mr. Esser and their reports, would you say 
that the OPM officials have taken significant steps to solve 
their problems?
    Mr. Spires. It does sound like they are doing a number of 
the things correctly. I think the centralization of IT is a 
very good step. They're talking about a modernization program 
that would upgrade their IT infrastructure.
    That being said, I go back to my earlier point that if I 
had walked in there as a CIO--and again, I am speculating a 
bit--and I saw the kinds of lack of protections on very 
sensitive data, the first thing that we would have been working 
on is how to protect that data, not even talking about 
necessarily the systems. How is it we get better protections 
and then control access to that data better?
    I think that is probably where the focus needs to shift 
here, based on what I am hearing.
    Senator Moran. Meaning that out to be a priority, the first 
effort.
    Mr. Spires. Yes.
    Senator Moran. Ms. Archuleta, does anyone at OPM take 
personal responsibility for these breaches, or is this just 
considered a problem with the system?
    Is this a problem with individuals not performing their 
duties? Or it is just that this is the system we inherited, 
we're working on it, and no one, in particular, is responsible 
for the outcome?

                          STATE OF FEDERAL IT

    Ms. Archuleta. I think Mr. Esser and Mr. Spires said it 
very correctly. This is decades of lack of investment in the 
systems that we inherited when I came in. From the very 
beginning of my tenure, I have been focused on this.
    We are working to install not only the architectural 
strategies, but also to install the detection systems and be 
able to remediate.
    But as both of my colleagues have mentioned, we have legacy 
systems that are very old. Oftentimes, we have to test to be 
sure we can even add those protection systems into the legacy 
system.
    If there is anyone to blame, it is the perpetrators. Their 
concentrated, very well-funded, focused, aggressive efforts to 
come into our systems not just at OPM, but as both of my 
colleagues have said, across the whole enterprise, is one we 
are concerned about and one we are working with our colleagues.
    We are going to take every step we possibly can at OPM to 
continue to protect. That is why we are trying to move out of 
the legacy system.
    Senator Moran. To date, you don't consider anyone at OPM, 
any of your staff or employees or people responsible for IT and 
security to be personally responsible? It is a problem with the 
system that has been inherited?
    Ms. Archuleta. This is an enterprise-wide problem, and 
cybersecurity is the responsibility of all of us who head 
organizations. That is why, with the Tony Scott's assistance 
and with his efforts, we are going to address this on an 
enterprise-wide basis as well as OPM.
    Senator Moran. So no one is personally responsible?
    Ms. Archuleta. I don't believe anyone is personally 
responsible. I believe that we are working as hard as we can to 
protect the data of our employees, because that is the most 
important thing we can do.
    I take it very seriously. I'm angry, as you are, that this 
has happened to OPM. I'm doing everything I can to move as 
quickly as I can to protect the systems.
    Senator Moran. Thank you very much.
    Ms. Archuleta. Thank you, sir.
    Senator Boozman. Mr. Esser, Ms. Archuleta mentioned that 
the problem is with the legacy systems, which I think we would 
all understand. However, isn't it true that several of the 
breaches were not to legacy systems, and with the right tools 
in place they would not have been breached?
    Mr. Esser. Yes, sir. Based on our audit work.
    Senator Boozman. So the idea that this is all legacy 
systems is really not the case.
    Mr. Esser. Well, there are many legacy systems at OPM. I 
don't want to give the wrong impression. I mean, that is a 
fact. But based on the work that we have done in our audits and 
ongoing work that we are doing, it is our understanding that a 
few of the systems that were breached are not legacy systems. 
They are modern systems that current tools could be implemented 
on.
    Senator Boozman. Okay, very good. I think that is really 
important.
    Concerns are being raised about the contract secured to 
provide credit-monitoring services to the victims of the first 
breach. We don't know the scope of the second breach and what 
services will be provided for additional victims.
    Mr. Esser, in your flash audit, you raised concerns about 
OPM's sole-sourced contract to manage OPM's infrastructure 
improvement project related to subsequent phases of the 
project. Do you have additional work planned to oversee OPM's 
contracting and procurement practices?
    Mr. Esser. It is, certainly, something that we are 
monitoring and following the reports and gathering information. 
We haven't planned any audits of that at this time, but it is 
something we may do.
    Senator Boozman. Very good.
    Mr. Spires, you describe a number of root causes that have 
led to the current issues the Government faces in IT security, 
and you have offered a number of recommendations.
    Can you just tell us again a couple of key recommendations 
that would make a difference over the next year or two?
    Mr. Spires. Yes, I would really like to reemphasize FITARA. 
I thank Congress for passing it for the good of the Nation. We 
need to figure how to manage our IT more effectively.
    I would say that is the single root cause that has led to 
these kind of situations we find ourselves in with these data 
breaches. It's not that I'm just one to say we need to have all 
the power reside with the CIO. But what we need are CIOs that 
have the authority to really bring best practices and not allow 
systems or practices to continue that jeopardize the security 
of our data and our systems.
    That has been the problem for decades. We still have real 
cultural problems. I mean, I am out of Government now for 2 
years, but based on many discussions I have had with brethren 
that are still CIOs and still in Government, the cultural 
issues loom large here.
    We need to take this incredibly seriously. And I would urge 
you as a subcommittee to provide your own oversight of the 
implementation of FITARA.
    Senator Boozman. Do we need additional legislation?
    Mr. Spires. I am not convinced. I think we do need the 
general cyber legislation about how we better share information 
between the Government and the private sector. I think that is 
something that Congress should continue to work on.
    I think we have, between the FITARA act and between the 
updated FISMA act, I think we have enough tools on the 
legislative side. I think it is now a leadership and management 
set of issues within the administration, with the proper 
oversight of Congress.
    Senator Boozman. Very good.
    Mr. Esser, along the same line, what would you identify as 
the most significant weaknesses or the underlying causes? What 
do you see as the priority we need to do in the next 2 or 3 
years?
    Mr. Esser. Specific to OPM, I think the project they are 
undertaking to modernize the IT systems is the right way to go. 
That definitely needs to be done. We fully support that 
project.
    We do have some concerns, as expressed in our flash audit 
alert, regarding some of the project management issues related 
to it, and the sole-source contracting. But in general, we 
think it is definitely the right path to follow.
    Senator Boozman. So how will you all be involved? Mr. 
Spires talked about oversight. Certainly, that is something we 
will do in this committee. How will you be involved in that 
process?
    Mr. Esser. We are continuing our oversight of the 
modernization project. The flash audit alert was issued this 
week. It was just an interim report, so to speak. We are going 
to continue our audit work throughout the length of this 
project.
    Senator Boozman. Mr. Spires, the administration's cyber 
goals are an effort to drive significant and rapid improvement 
and changes, yet that is not working. Do you recommend any 
changes to the goals?
    Mr. Spires. Yes, I would first comment that I think having 
goals is, certainly, appropriate, but let's take one example, 
this notion we all talked about, this need for multifactor 
authentication, to be able to much better protect the 
credentials of those who use these systems that are legitimate. 
Yet when you look at the cyber goal and you look at the use of, 
for instance, the Homeland Security Presidential Directive 12 
(HSPD-12) Personal Identity Verification (PIV) card and trying 
to get the 75 percent usage within the civilian Federal agency 
as the goal, let's go back to the adversaries. They only need 
one way in, right? And 75 percent just doesn't cut it in this 
world anymore.
    So we need to rethink, I think, the objectives there. Go 
back to the prioritization of protecting data, doing the 
multifactor authentication. Those should be the highest goals.
    That does not mean we shouldn't be working to continue to 
bring in the right kind of capabilities to better protect our 
systems. We need to do that as well. But I think it is time to 
rethink those goals and to reset them along those sets of 
priorities.
    Senator Boozman. Mr. Esser, you mentioned that one of your 
findings was that OPM didn't exactly know what inventory they 
have. Is that being corrected? Or do we still not know the 
number of units, servers, hardware components, etc.?
    Mr. Esser. Based on our latest work, that is still our 
understanding. Director Archuleta commented a little while ago 
that they do have a complete inventory of systems, so we would 
be more than happy to work with them and look at that and do 
our audit work related to that.
    Senator Boozman. But if that is a case, that has just 
recently happened?
    Mr. Esser. Yes, sir.
    Senator Boozman. Okay, thank you very much.
    Senator Coons. Mr. Chairman, I will defer to the vice chair 
of the full committee.
    Senator Boozman. Senator Mikulski.
    Senator Mikulski. Thank you very much.
    Mr. Spires, could you tell me, has Kaspersky been 
penetrated? I understand even top-notch security firms 
themselves sometimes have a cyber shield that can be 
penetrated.
    Mr. Spires. I do not have any more information than what I 
read in the news, Senator, but I read that as well.
    Senator Mikulski. Which indicates that this is an 
international problem.
    Mr. Spires. It certainly is.
    Senator Mikulski. It really shows that, despite best 
efforts of highly skilled professionals--that is not to excuse 
where we are--but your advice to us is to get with it, and get 
with it pretty quick.
    Mr. Spires. You summed it up very well.
    Senator Mikulski. Would you recommend that this be across 
all Government agencies that OPM was hit, et cetera.
    Mr. Spires. My experience having served on the Federal CIO 
council and worked with many of the agencies is that OPM is not 
some kind of outlier here. Many Federal agencies have similar 
issues to what OPM faces, as far as their IT management and 
cybersecurity posture.
    Senator Mikulski. Thank you very much.
    Ms. Archuleta, the Federal employees, Maryland is the home 
to 130,000 Federal employees, and they work at everything from 
the National Institutes of Health to the National Security 
Agency. Most people at the National Security Agency are 
civilian employees.
    What do I tell my employees, because they are quite 
apprehensive? What is the impact of this on them? Can you talk 
about this? What is the impact on them? How are you in 
communication? Should they be afraid that another shoe will 
drop, and it could drop on them and their credit ratings or 
whatever?

                              NOTIFICATION

    Ms. Archuleta. Yes, and I do want to say I care very much, 
as you do, Vice Chairwoman, about our Federal employees. What 
this breach has done is exposed their data, as you know. And 
I'm very concerned about that.
    That is why, in terms of the first incident, we have been 
working hard to not only begin, but also to improve our 
notification system and to provide both identity theft and 
credit monitoring for them.
    We have received much feedback from our employees. We are 
using that feedback.
    Senator Mikulski. So have I. They are pretty apprehensive 
and agitated.
    Ms. Archuleta. I know. I'm angry, too. I'm angry that this 
has even happened. I have worked very hard toward correcting 
decades of inattention, and I will continue to do so.
    I will tell you that I'm very concerned about protecting 
the data of our employees, and that as we move into incident 
two, I am going to use their feedback, their concerns, to 
inform us so we can look at the wide range of options we will 
have available to us with these notifications.
    Senator Mikulski. Do you have kind of a council of Federal 
employee organizations that you meet with that could tell you 
the view from the employee up, so that you really hear what 
they are saying?
    People like myself, Senator Cardin, Senator Kaine, Senator 
Warner, we are very proud of the fact that the capital region 
is the home to so much talent that works on so many pressing 
national interests, from the cure for cancer to protect our 
country against predatory attacks. Now they are worried about 
predatory attacks against them.
    Do you meet with them and get this advice, while we are 
trying to sort out the best way to have cyber shields on our 
dot-gov?
    Ms. Archuleta. We are doing several things, Vice Chairwoman 
Mikulski. Thank you for that question.
    We are working with our Chief Human Capital Officers (CHCO) 
Council, which are our Human Capital Officers.
    Senator Mikulski. I don't know what Chico is. That's where 
I bought some of my jackets.
    Ms. Archuleta. Mine, too.
    The human capital officers for each of the agencies, as 
well as all of the department heads and leaders. And we have 
tried to adjust the notification system so it is customized to 
the employees.
    We are also listening to our unions, our union 
representatives, and seeking their input, and other stakeholder 
groups, to see how we can better improve our notification 
system, not just in the long term, but during this period from 
June 8 to June 19, to take their feedback every day around call 
centers, about how we can provide Frequently Asked Questions 
(FAQs) on Web sites, and we could work directly with department 
heads and agencies, so they are assisting us in the 
notification process.
    We take very, very seriously what we owe to our employees. 
I will continue to do that and to make sure that, in the second 
incident, we are using their input.
    Senator Mikulski. I think that is absolutely crucial.
    Mr. Chairman, I would like to really thank you also for 
having the IG at the table. When I chaired the committee, it 
was administrative procedure that all my subcommittees either 
had an IG come on what were the hotspots for agencies or at 
least submit written testimony. The fact that you are utilizing 
that is really crucial.
    We will have a lot to talk about this afternoon. Better 
talk privately.
    Mr. Esser, thank you so much for your service. We so value 
the work of our inspectors general. They have been enormously 
helpful to me both as chair and vice chair of the committee to 
really get value for our dollar, to identify management 
hotspots.
    And we really want to thank you for the identification not 
only of the problem but also the recommendation for the 
solutions. So thank you very much, and all of the IGs.
    Mr. Esser. You are very welcome, Senator.
    Senator Boozman. Thank you, Senator.
    Senator Lankford.
    Senator Lankford. Thank you.
    Mr. Spires, let me ask you a follow-up question. You said 
that, coming from the CIO council before, that many Federal 
agencies have similar issues.
    I have a twofold question. One is define what issues mean 
on this. And second, give me a percentage when you say ``many'' 
other agencies. Again, I'm not asking you to articulate what 
are the security issues and specifically where are 
vulnerabilities. I am not asking you to do that. Give me a 
guess here of how many agencies we are dealing with and what 
those issues are.
    Mr. Spires. I would say many agencies of the Federal 
agencies have a similar kind of problem that Mr. Esser alluded 
to about decentralization of IT.
    In and of itself, it is not necessarily a bad thing. But it 
has been very, very difficult for many of these agencies as 
they rolled out systems, and then have to support these 
systems, the complexity factors have grown so significantly 
that it is just very, very difficult for them to get their arms 
around systems.
    I mean, at DHS, to call out DHS specifically, we would do 
inventories and try to, if you will, find all of the systems 
that we had. I think that we did a relatively good job at that. 
But every year, we would find more. Well, try to secure that.
    I say that is the first thing, that most agencies, I 
believe, have that problem. I don't want to put a percentage on 
it, because I don't know how to measure that as far as a 
percentage. But I would say most of the major agencies have 
this problem that the CIO would not be able to sit here and say 
that they have a good handle on their true inventory of IT 
systems.
    Senator Lankford. What about use of credentials?
    Mr. Spires. I give a world of credit to DOD for having 
rolled out that Common Access Card (CAC) card years ago and 
having the leadership and wherewithal to make that happen. Most 
Government agencies are still struggling to roll out what we 
call the Homeland Security Presidential Directive 12 (HSPD-12) 
program, or the Personal Identity Verification (PIV) card, the 
smart card, and then use it for logical access control.
    It is still an issue. If you go to the cap goals and look 
at where we are at, it is still an issue at most of the 
agencies on the civilian side.
    Senator Lankford. Authorizations?
    Mr. Spires. Again, I think you're hitting the hotspots 
here. Many systems we would find, they wouldn't have 
authorizations because they were out in the field and they were 
not under the CIO's control. Or what I also didn't like, which 
is kind of hiding the ball a little bit here, is you could do 
an interim authority to operate, and some of those would last 
way too long. There would be weaknesses in the systems, and it 
would be difficult to clear those weaknesses.
    So again, I cannot put numbers on that, sir. But, 
hopefully, I have given you a sense of where I feel many 
agencies are today.
    Senator Lankford. My question to that related to 
appropriations. None of those seem like big dollar items. Those 
are more management or current inventory, structure, process, 
the wonderful term of hygiene for our systems. Am I hitting 
that?
    Mr. Spires. I want to be a little careful here.
    Senator Lankford. If we have a monitor with an orange 
screen on it, I get it. We have some old systems out there. But 
I'm asking, the initial security side of this, the first rung 
seems to be how we are handling the information in the 
inventory.
    Mr. Spires. I would agree with your sentiment that says we 
could manage this a lot more effectively, and we do not 
necessarily need new dollars to do that.
    Some of the issues, though, that go to true modernization, 
you do need investment.
    Senator Lankford. Sure.
    Ms. Archuleta, let me ask you a question. You had in your 
written testimony, and in your oral testimony as well, you kind 
of talked through the timeline of how things went. In some 
areas, you were very specific of how things moved and in what 
order. There are a couple of terms that jumped out to me there.
    Let me read this back to you. It says, ``As a result of 
these efforts to improve our security posture, in April 2015, 
an intrusion that predated the adoption of these security 
controls affecting OPM's IT systems and data was detected by 
our new cybersecurity tools. OPM immediately contacted the 
Department of Homeland Security and Federal Bureau of 
Investigation.''

                        INTERAGENCY NOTIFICATION

    Could you give me definition of ``immediately''? Is it that 
same day, week, month?
    Ms. Archuleta. That same day.
    Senator Lankford. Same day. Great.
    Then you had the same issue there. You talked about the 
scope and impact of the intrusion. Shortly thereafter, OPM 
notified congressional leadership.
    What is our timeframe?
    Ms. Archuleta. We have a 7-day requirement, which we met.
    Senator Lankford. Okay, so met it within that 7 days.
    Ms. Archuleta. Yes.
    Senator Lankford. Terrific. Thank you.
    The contractor that was involved in this, that had 
responsibility for strategic IT in the security plan, who was 
that contractor? What were the assurances that they gave early 
on during the conversation in the contracting process to say we 
will provide security structure, management? I'm looking for 
what they said they would do and what they actually did.
    Who was the contractor, first?

                          CONTRACTOR SECURITY

    Ms. Archuleta. I want to be very clear that while the 
adversary leveraged a compromised KeyPoint user credential to 
gain access to OPM's network, we don't have any evidence that 
would suggest that KeyPoint as a company was responsible or 
directly involved in the intrusion. We have not identified a 
pattern or material deficiency that resulted in the compromise 
of the credentials.
    Since last year, we have been working with KeyPoint and 
they have taken strides in securing its network and have been 
proactive in meeting additional security controls that we have 
asked them to use to protect all of the background data.
    Senator Lankford. So the question is then with KeyPoint, 
the security controls they put in now, were these security 
controls that were discussed earlier that were just not 
fulfilled, or were these things that weren't considered?
    Ms. Archuleta. I think I understand, but let me be sure. 
Our detection in April discovered an intrusion into our system 
in late 2014. The detection was in 2015; we discovered an 
intrusion into our system in late 2014.
    Senator Lankford. What I am trying to drive at is, then 
there were changes in security protocols. Were those changes 
recommended before, or are these entirely new?
    Ms. Archuleta. They were ones we had planned and were 
installing as we progressed through our improvements. 
Unfortunately, we didn't have them in place soon enough. We are 
working, as I said, with a legacy system. We were testing many 
of our security tools. And as a result of actually being able 
to install this particular security tool, we were able to 
detect it.
    Senator Lankford. And that plan had been in place how long?
    Ms. Archuleta. It is part of our IT security plan, which we 
developed in----
    Senator Lankford. The 2012 plan?
    Ms. Archuleta. It is 2014.
    Senator Lankford. Okay. Thank you.
    Ms. Archuleta. Thank you, sir.
    Senator Boozman. Senator Coons.
    Senator Coons. Thank you, Chairman Boozman.
    Ms. Archuleta, you're in the midst of a major IT 
modernization project. How much do you expect that total 
project to cost? What elements are included in that amount?

                          OPM IT MODERNIZATION

    Ms. Archuleta. There are four steps that we are using for 
that plan.
    The tactical--that is, what are the tools we are going to 
need to protect our systems even as we move forward? We are 
building a new shell. It will be the platform. The third and 
fourth are the migration and then the disposal of the legacy 
system.
    We are at the tactical step right now. In June of 2014, we 
hired a contractor to assist us in the development of the 
shell. We are moving toward that.
    We, as I said, have identified $67 million in 2014 and 2015 
that would enable us to move toward that. We're asking for an 
additional $21 million in the 2016 budget to aid us.
    We are working closely with OMB to determine if another 
request should be made.
    Senator Coons. Has a major IT business case been prepared 
as OMB requires for IT projects?
    Ms. Archuleta. Yes, it has. We worked very close with OMB. 
This is one of the points that the IG brought out in his flash 
audit. I can assure the IG that we, in fact, have been working 
very, very closely with OMB.
    This is an urgent issue. We are moving as fast as we can, 
making sure that we track, we justify and document all that we 
are doing consistent with the OMB standards that have been 
given to us.
    We have a budget that we worked very closely with OMB to 
deliver.
    Senator Coons. In response to the IG audit, one of the 
concerns was why you would give a sole-source contract, if I 
understand correctly, to a single contractor to manage all four 
phases of this very large project.
    What type of contract is it? Is it a fixed-cost project? 
What steps are you considering in light of the audit?

                            OPM CONTRACTING

    Ms. Archuleta. As I said before, there are oftentimes 
places where we have areas of agreement and areas where we 
would like to have further consideration with the auditor.
    In his flash audit, the inspector general encouraged the 
use of either existing contracts or the use of full and open 
competition. I would like to assure you and the inspector 
general that the processes followed in awarding the already 
existing contracts have been perfectly legal, and that we will 
continue to ensure that any further contracts and processes 
entered into will also be perfectly legal.
    He also expressed concern that the sole source contract 
used in the tactical and shell phases should not be used for 
migration and the cleanup phases that I described earlier. I 
understand his concerns. I would like to remind the inspector 
general that the contracts for migration and cleanup have not 
yet been awarded.
    Where we would like to have further discussion with the 
inspector general is the timeline, the practical timeline, for 
our major IT business case. He is suggesting that we move that 
out to fiscal year 2017. I would like to move that much 
quicker, given what we have already experienced.
    I assure the inspector general and everyone here that all 
of our decisions are being tracked, documented, and justified.
    He has made a number of recommendations regarding 
contracting and standards that rely on external sources for 
assistance, and I believe the Federal Government and through 
the good work that Tony Scott is providing to us and all of our 
partners in Government have strong solutions to offer. I am 
going to look forward to talking more to him about his 
suggestion.
    Senator Coons. Have you had a chance to look at other 
agencies that have had successful IT projects to use as a 
model? As you mentioned, have you some sources of valuable 
insight into how to manage multi or multiphase expensive and 
time-critical IT projects.
    Have you looked at whether having an outsider contractor 
managing the project or breaking it into more bite-size pieces 
might achieve some of your goals?
    Ms. Archuleta. Well, we are looking at all of our options, 
certainly. This is a very serious issue. I am taking it very 
seriously and looking to all of the resources I have available 
to me. I will, certainly, do that.
    I believe that the Federal CIO is an important asset to us, 
as are our partners at the Department of Homeland Security, 
National Security Agency, and the Federal Bureau of 
Investigation. So we are looking to those. And I welcome the 
Inspector General's suggestions. And as I move forward through 
this process, I will be listening to him carefully, as well as 
my partners across the Government.
    Senator Coons. I appreciate that response.
    Mr. Spires, you were the former CIO at DHS and IRS, both of 
which have had very cumbersome, difficult, and often challenged 
IT projects. Were you able to do turnaround on some of the 
legacy IT failures there? What advice do you have for OPM, as 
they engage in another expensive, complex, multiyear 
modernization effort?
    Mr. Spires. Sure. First, I would make the note that it is 
always about a team effort, in order to deliver these kinds of 
programs. I actually joined IRS and took over the modernization 
program. At the time, it was on the GAO high-risk list, and I 
am pleased to say that, as a team effort, it took a long time, 
but we were able to improve our processes to the point where 
recently that program was removed from the high-risk list, 
which is quite an accomplishment.
    Let me just say that I have reviewed many programs. We 
could have a long discussion about how to appropriately manage 
IT programs. I will make a couple of points very quickly.
    One thing that is very critical is the overall governance 
framework that you put in place. You need to get the right 
stakeholders in the room to work together to make this happen. 
All too often in Government, I have seen issues where that does 
not happen.
    The other thing I would say is don't over-rely on 
contractors. You need to have a program management office of 
Government officials that have the requisite experience and 
skill set to be able to run these programs.
    And I'm not picking on OPM. I don't know much about their 
modernizations at all. But I have found the smaller agencies, I 
think, struggle more with this because they do not have the 
heritage of having learned those lessons within the agencies 
themselves.
    Senator Coons. Thank you. I see my time has expired.
    Mr. Spires, Mr. Esser, Ms. Archuleta, thank you for your 
testimony today.
    I'm grateful for the input of the IG and for your offer to 
continue to work with us and consult with us as we move forward 
to try to offer critically needed reassurances, particularly to 
law enforcement, but all Federal employees, and to find timely 
and cost-effective solutions to this and other cyber 
challenges.
    Senator Boozman. Senator Moran.
    Senator Moran. Chairman, thank you very much.
    Mr. Spires, based upon what you heard today, your knowledge 
of Government agencies and their cybersecurity issues, is this 
a management issue or is this a resource issue?
    Mr. Spires. It is more of a management issue, sir.
    Senator Moran. Why do you say that?
    Mr. Spires. Because of the dispersed nature of the way IT 
has been run in a lot of agencies, there are so many let's say 
inefficiencies that have crept into the system that I don't 
believe we effectively spend the IT dollars we receive.
    So I believe with the proper drive towards management, you 
can actually drive a lot of savings from the existing budgets. 
But caveat that. When you are talking about new modernization 
programs, sometimes with the right business case, it does make 
sense to invest in those.
    Senator Moran. Based on your response to Senator Coons, I 
assume there is a natural inclination when these issues arise 
that the easy thing to do is to hire a contractor. Within the 
agency, we do not know this stuff, it is not our primary 
mission, let's just get somebody in here who takes care of 
this.
    This committee, when Senator Udall was its chairman, we 
worked on FITARA and issues related to how to improve the role 
CIOs play in an agency, in part trying to compensate for, I 
think, an attitude that we are not tech folks, somebody else is 
responsible for that.
    Ms. Archuleta, describe to me how you work with your CIO. 
Let me ask a question first about this.
    The first breach I think you were aware of goes back to 
June 2014. As I recall, you and others testified in front of 
this committee in May of 2014, and the following month, June, 
OPM became aware of a breach.

                          TIMELINE OF BREACHES

    Ms. Archuleta. Yes. The first breach that we discussed with 
you was----
    Senator Moran. I don't think you discussed this in May. If 
you knew about it, I do not think we knew about it.
    Ms. Archuleta. Okay. I'm sorry, sir.
    I want to look and make sure I have my months right. March 
2014 was when we identified some adversarial activity. But 
there was no PII that was lost in that.
    In June 2014, which is what you may be referring to, USIS 
was breached. There was OPM data that was compromised. It 
impacted about 2,600 individuals.
    In August of 2014, KeyPoint Government solutions, was 
breached. That breach compromised approximately 49,000 
individuals.
    In April of 2015 was the breach that I described earlier, 
as well as the one in May.
    Senator Moran. So let me make sure I understand what you 
just said. There were three breaches that occurred prior to the 
two that we are now talking about.
    Ms. Archuleta. There was the OPM network in March, June of 
2014 USIS, in August KeyPoint.
    Senator Moran. What changed at OPM? You obviously then 
became aware on three occasions somebody is trying to intrude 
on our system. What then did OPM do after realizing that?

                          OPM IT MODERNIZATION

    Ms. Archuleta. If I could just go back a little bit, 
because I want to reassure you, to my colleague's point, that 
one of the first actions I took as OPM director was to hire 
Donna Seymour. The second action I took was to develop an IT 
strategic plan that had exactly the pillars my colleagues 
describe.
    So for IT leadership, look to OPM's CIO. IT governance is 
my whole leadership team we must buy into the design and the 
structure of the IT plan and its development. And for IT 
architecture, what was it going to take for us to build out the 
systems that we needed, in view of our legacy system?
    Regarding IT data, we needed to be informed. We needed to 
know that what we were doing was right and that we were doing 
this in a way that was analytical. We also had as an important 
pillar IT security, obviously very, very important. As we were 
building out, even as we were working on our strategic plan, 
one of the most important pillars was IT security.
    Since Donna Seymour came in as CIO, and because of her 
experience, and as Mr. Spires says, the experience we have in 
Government, we brought her from the Department of Defense and 
the Department of Transportation, that she was able to apply 
those skills and that talent to identifying not only what our 
strategic steps are but how we could begin to develop them.
    The first thing we needed to look at was what we could 
place on that legacy system, and what would it take to do that?
    That is where she has begun and what she continues to do 
throughout her tenure.
    Senator Moran. Your point is, not necessarily following the 
three breaches that we just talked about, but from your 
arrival, your priority was to get a CIO and begin 
implementation of a plan?

                         OPM IT STRATEGIC PLAN

    Ms. Archuleta. I will tell you, Senator, that from the 
first time I was briefed on our IT infrastructure during my 
confirmation preparation, I knew that there was a problem. And 
that is why, in my confirmation hearing, I said it would be a 
top priority, and I promised your colleagues that I would 
develop an IT strategic plan, which I did, and produce within 
the first 100 days. I was also wise enough to hire Donna 
Seymour.
    Senator Moran. The IT strategic plan that you just 
mentioned, is that something we could see?
    Ms. Archuleta. Absolutely, sir. It is on our Web site. I 
will make sure you get a hard copy as soon as possible.
    Senator Moran. Mr. Chairman, let me see if I have 
additional follow-up.
    Following that IT strategic plan, is there a new plan as a 
result? It is just implementing this one?
    Ms. Archuleta. As you know, a plan is dynamic, and as we 
learn things, that plan changes. But we are following it. We 
are making sure every component--governance, leadership--making 
sure that we're making sound decisions on the architecture, 
that we are building and making sure it is based on clear 
analytics, and that cybersecurity is an important component of 
all of that.
    Senator Moran. Are there benchmarks that are now in place 
within that plan so that we see whether we are making progress, 
benchmark by benchmark?
    Ms. Archuleta. I would like to come back to you and show 
you what those benchmarks are, sir.
    Senator Moran. Okay.
    Let me ask about notification. You indicated in your 
testimony, and I wrote this down as well, ``as soon as 
practicable.'' And I understand the value of that phrase.
    The President's proposed legislation for notification to 
occur within 30 days of a breach, how do you think practicable 
fits with the 30-day requirement?
    Ms. Archuleta. Within the proposed legislation, 
``practicable'' is included in there. I can assure you we are 
trying to do everything we can to come as close to that date as 
we possibly can.
    Senator Moran. All right.
    Is there anyone who oversees IT security outside of OPM? 
What is the relationship with OMB?
    Ms. Archuleta. It is a very close relationship. We work 
very closely with the Federal CIO who has responsibility for 
this, Tony Scott. He has been at OMB for about 90 days now. He 
has been engaged with us from the very beginning. He and Donna 
have a strong relationship, and he has a strong adviser role to 
us.
    Senator Moran. Prior to his arrival 90 days ago, was there 
someone filling that responsibility as well?
    Ms. Archuleta. I don't know that, sir, but I would be glad 
to get that information back to you.
    Senator Moran. Okay. Thank you very much.
    Ms. Archuleta. Thank you, sir.
    Senator Boozman. Thank you, Senator Moran.
    Thank you all for being here. Again, I apologize for the 
earlier delay. This is such an important hearing. I think this 
is one of the most important hearings we will have this year. 
We will be following up in the not-too-distant future, again 
making sure things are moving in the right direction.
    I want to thank you all for participating. I also want to 
thank my staff and Senator Coons' staff for the excellent job 
they have done in preparing for the hearing.
    At this time, I ask unanimous consent that statements by 
the National Treasury Employees Union and the Government 
Employees AFL-CIO be included in the hearing record.
    [The information follows:]
      Prepared Statement of the National Treasury Employees Union

                 Colleen M. Kelley, National President

    Chairman Boozman, Ranking Member Coons and distinguished members of 
the subcommittee, I would like to thank you for the opportunity to 
share our members' perspectives on the recent announcements of agency 
data breaches impacting Federal employees. I commend you for holding 
this hearing on an extremely urgent issue for the Federal workforce. As 
President of the National Treasury Employees Union (NTEU), I have the 
honor of representing over 150,000 Federal workers in 31 agencies.
    Mr. Chairman, as you can imagine, there is great fear and outrage 
on the part of Federal employees and retirees in the wake of the U.S. 
Office of Personnel Management's (OPM) announcements on June 4, and 
more recently on June 12, that millions of current and former Federal 
employees may have had personally identifiable information (PII) 
compromised owing to breaches in databases containing various personnel 
records. Federal employees have had a difficult few years, facing 
multi-year pay freezes, furloughs, sequestration, and this type of 
exposure of personal information is the final straw. Such exposure is 
simply unacceptable.
    It is important to note that these breaches follow wide-scale 
breaches of health insurance carriers earlier this year that included 
Federal employees enrolled in several Federal Employees Health Benefits 
Program (FEHBP) plans, and multiple announcements of agency breaches in 
2014 affecting background investigation and suitability records. 
Federal employees are required to provide significant amounts of 
personal data to their employing agencies, for general employment 
purposes, as well as for suitability and security clearance purposes. 
NTEU asks that this subcommittee act to ensure that agencies have the 
ability to immediately safeguard Federal employees' information going 
forward. It should come as no surprise that employees are questioning 
the idea of submitting this type of detailed personal information to 
their agencies in the future, and are particularly pointing to the 
suitability and security clearance process, forms, and storage as areas 
that need to be immediately changed. We also ask the subcommittee to 
keep these breaches in mind as serious consideration of so-called 
``Continuous Evaluation'' (CE) policies move forward in the security 
clearance and suitability reform areas, as well as for oversight 
purposes of the Administration's Insider Threat program.
    At the moment, a principal outstanding concern for Federal 
employees and retirees is the confusion about what exact type of 
individual data and information was in fact compromised, and of whom. 
In its first statements, OPM confirmed that a breach had potentially 
compromised names, dates and places of birth, Social Security numbers, 
and addresses. However, a multitude of media and other public 
statements followed maintaining that the exposure was far greater in 
number and the information even more intrusive--that the type of 
information that may have been accessed by outsiders involved 
information about family members, beneficiary information from employee 
benefit programs, bank accounts, data submitted and stored from 
Declarations of Federal Employment and Standard Forms 85 and 86 \1\ 
(among others) as part of routine background investigations, including 
detailed financial information and medical history, home addresses and 
other PII and data for annuitants. Late on June 12, OPM informed NTEU 
that this was indeed the case--that the worst case scenario for 
individuals' privacy--be they Federal civilians, military personnel, 
contractors or other individuals simply appearing in various documents, 
and our Nation's national security has occurred. However, NTEU wants to 
be clear that which employees have been affected by this apparent 
wider, and more serious breach, is still unknown to us and most 
importantly to the affected individuals.
---------------------------------------------------------------------------
    \1\ Questionnaires for Public Trust, Non-Sensitive, and National 
Security Positions.
---------------------------------------------------------------------------
    OPM's statements issued to us and to agency heads still do not 
contain any information about whether individuals who do not possess 
security clearances, but who provide detailed information for 
suitability determinations and Standard Form 85 for critical non-
sensitive positions, are also included in this breach. Not knowing 
whose data, and what exactly has been accessed and compromised, is 
creating widespread confusion and anxiety, on top of the general 
frustration of having one's personal information compromised be it from 
a foreign power, a thief, or otherwise ill-intended individual. 
Employees deserve to know what exact databases and information was 
hacked, and they need to be in a position to act, given the high level 
of risk they and their families are facing. It will also be important 
to address whether spouses, siblings, and other relatives, as well as 
former non-Federal coworkers and acquaintances whose PII and contact 
information is provided, also had their information compromised, and 
whether there are plans to notify these members of the public, and to 
provide them with credit and identity protection services. We do not 
currently have any notification details to share with our members 
concerning the latest news from OPM, which again is unacceptable. I ask 
this subcommittee to ensure that the notification plan for all of these 
affected individuals is made public, and that it is put into action 
immediately.
    Given that more than a week has passed since this wider breach was 
announced, NTEU believes it is time to immediately extend blanket 
credit monitoring and identity theft protection services to the entire 
Federal workforce. We understand that the forensic investigation may 
take time, and that there are serious national security implications to 
this breach, so in order to best protect employees going forward, a 
blanket extension is needed. Since large numbers of employees (OPM 
estimates 2.1 million) have just received these services as part of the 
first OPM reported breach, it should be a relatively small number of 
additional employees who need this coverage extended to them.
    OPM responded positively to NTEU's initial request that Federal 
employees be allowed to use Government computers in order to be able to 
contact CSID, the OPM-selected contractor, for credit monitoring 
purposes and to enroll in the identify theft protection services. 
Additionally, OPM also acted on NTEU's request to ensure access to 
Government computers for those employees who do not regularly use 
computers on the job. While OPM has encouraged agencies to do these 
things, NTEU urges agency heads and this subcommittee to ensure that 
this access is indeed granted.
    It is critically important for employees and retirees to be able to 
access and enroll in protection services as soon as possible. While 
NTEU is aware that OPM's contractor-provided notifications have begun 
to be emailed and mailed directly to active employees for the first 
breach, we are aware of various difficulties that may exist in reaching 
affected annuitants and former employees, whose mailing addresses are 
not actively maintained by employing agencies or OPM. Additionally, 
many of our members are reporting extensive problems when attempting to 
enroll in the CSID-provided services--ranging from not being able to 
reach an operator on the toll-free line, to the Web site crashing or 
freezing when they are attempting to enter the required enrollment 
information, to the rejection of assigned pin numbers and passwords, to 
the inability to establish required connectivity to the CSID Web site, 
to official email notifications going into spam filters, and to family 
members receiving the employee's notification letter, at an address 
that the employee has never lived at, or used for any purpose. In 
short, the CSID notification and enrollment process has been a disaster 
for many NTEU members.
    A major concern for employees is the delay in notification from the 
time of the actual discovery of the breaches. It is imperative that 
affected individuals receive swift notification of any type of breach 
compromising PII and other information. Any delay in notification only 
increases the likelihood of individuals experiencing identity theft and 
suffering financially. As you know, Mr. Chairman, NTEU represents 
employees at U.S. Customs and Border Protection (CBP), and in September 
2014, the Department of Homeland Security (DHS) became aware of a 
breach involving KeyPoint, a contractor providing background 
investigations and support. The overall volume and sensitive type of 
information that is provided by employees undergoing a background 
investigation--either as a new hire or for a periodic reinvestigation--
is significant, and includes extremely personal details of employees, 
their family members, and of their friends, and even of their coworkers 
and acquaintances. However, it was not until June 4, 2015 that DHS 
began providing and notifying CBP employees of their ability to enroll 
in credit monitoring and identity theft protection services. A nine 
month delay is simply unacceptable for all individuals involved. 
Moreover, two simultaneous, ongoing employee notification processes of 
compromised employee personnel records at CBP is leading, not 
surprisingly, to major confusion in the workplace.
    Mr. Chairman, I also want to share that I have requested that, as 
we move forward, serious consideration be given by the administration 
to providing both the credit monitoring services and the identity theft 
protection services for a significantly extended period of time beyond 
the current 18 months. Given how long these breaches may have gone 
undetected, and since the exact identities and data compromised is not 
yet known, NTEU believes these items to be prudent courses of action. 
As an example, following this year's Blue Cross Blue Shield healthcare 
breaches, carriers provided 24 months of protective services to 
affected enrollees. Additionally, we ask that blanket coverage be 
provided now to those individuals affected in the second breach. 
Serious compromises of data and personal information demand serious 
responses from the U.S. Government for the protection of its most 
valuable asset, its people.
    I again thank the subcommittee for the opportunity to provide 
NTEU's views on these alarming employee data breaches, and for your 
work to identify the source of these intrusions, as well as to identify 
the compromised employee records and personal information. And, most 
importantly to help ensure that this does not happen again. However, 
for the information already compromised, time is of the essence, and 
clear guidance and immediate notification, with adequate levels of 
protection, is warranted. Ultimately, NTEU members want to be assured 
that their information, and their family members' information, is not 
at risk because of their profession. Our members deserve to be able to 
trust that the Government can properly secure their private 
information.
                                 ______
                                 
Prepared Statement of the American Federation of Government Employees, 
                                AFL-CIO
         opm information technology spending and data security
    Chairman Boozman, Ranking Member Coons, the American Federation of 
Government Employees, AFL-CIO (AFGE) which represents more than 670,000 
Federal employees, would like to thank the subcommittee for holding 
this important hearing on the recent data breaches to the Office of 
Personnel Management's electronic employee data systems. Unfortunately, 
in the days since the breach was originally announced, the number of 
individuals who are or have been employed by the Federal Government, 
and potentially had their personal data hacked continues to increase. 
Very little substantive information has been shared with Federal 
employees, despite AFGE's numerous requests for specific information in 
an effort to help those affected by the data breach. All individuals 
affected by the OPM data breach deserve nothing less than a clear path 
forward that allows them to take immediate action to protect themselves 
from the misuse of their stolen personal information, successfully 
monitor their credit, and continue their work as Federal employees with 
confidence that the necessary precautions will finally be taken to 
protect their personal data.
    OPM must commit to answering the most basic of questions regarding 
the breach. The fact that OPM continues to refuse to answer simple 
questions about the dimensions of the breach have made the Federal and 
DC Government employees and retirees that AFGE represents deeply 
skeptical of any information coming from OPM. AFGE understands the 
sensitive nature of the current criminal investigation that is 
underway, however, there are some questions and issues that the agency 
has a moral responsibility to answer. For example, one question that 
still has not been adequately addressed by OPM is whether or not the 
data that was stolen can be linked to Federal employees' bank accounts 
or direct deposit information. Federal employees deserve answers to all 
of their questions so they can take appropriate action.
    Based on the information that OPM has provided, AFGE believes that 
the Central Personnel Data File was the targeted database, and the 
hackers are now in possession of all personnel data for every Federal 
employee, every Federal retiree, up to one million former Federal 
employees, as well as similar data for their family members. We believe 
that hackers have every affected person's Social Security number(s), 
military records and veterans' status information, address, birth date, 
job and pay history, health insurance, life insurance, and pension 
information; age, gender, race, union status, and more. In fact, at the 
House of Representatives Oversight and Government Reform hearing held 
on June 16, 2015, OPM Director Katherine Archuleta testified that 
Federal employees' Social Security numbers were not encrypted, and thus 
were compromised. This is a cyber-security failure that is absolutely 
indefensible and outrageous. While OPM has informed Federal employees 
that they will provide 18 months of credit monitoring and $1 million in 
liability insurance, AFGE believes that a mere 18 months of credit 
monitoring is entirely inadequate, either as compensation or protection 
from harm. Federal employees will suffer the consequences of the OPM 
data breach far longer than 18 months. In order to protect the personal 
data of the millions of individuals affected by the data breach from 
this point forward, OPM owes employees and their family members free 
lifetime credit monitoring and liability insurance that covers the 
entirety of any loss attributable to the breach. With the personal 
information of millions of people stolen, we cannot underestimate the 
long-term threats to Federal employees' personal finances, credit, and 
physical safety.
    AFGE also requests that OPM reconsider the decision to enter into 
contact with Winvale/CSID, a contractor given responsibility for 
answering affected employees' questions involving their stolen personal 
information. Based on our membership feedback, Federal employees have 
not been able to speak with an actual person when they have questions. 
At the very least, the terms of the contract should have included 
guaranteed access to points of contact that can answer specific, 
personal questions that affected Federal employees may have regarding 
the data breach. Federal employees who have been victimized by this 
breach deserve more than a Web site that is difficult to navigate and 
call center contractors who do not know the answers to questions that 
go beyond a Frequently Asked Questions (FAQ) template. Those affected 
should have access to OPM employees who can respond to questions that 
are unique to their individual situations.
    AFGE has also received numerous complaints from Federal employees 
who describe their horrendous experience trying to access assistance 
from the contractor hired to perform credit monitoring. These 
complaints range from reports of the Web site constantly crashing to 
the information the contractor produces being inaccurate and out of 
date. A recent report on Federal News Radio noted, CSID is ``. . . 
thought of as a company that helps others get on the General Services 
Administration (GSA) schedules, prepare proposals and the like, and 
their GSA schedules are for things such as lab equipment and IT 
software services, but there is nothing about credit monitoring, 
insurance or similar offerings . . . interestingly enough Winvales's 
Web site now says they provide credit monitoring services, but their 
profile on Bloomberg does not mention it at all.'' \1\
---------------------------------------------------------------------------
    \1\ Federal News Radio, OPM Contract for Credit Monitoring Services 
Called Into Question; http://www.Federalnewsradio.com/520/3875508/OPM-
contract-for-credit-monitoring-services-called-into-question.
---------------------------------------------------------------------------
    Accuracy and accessibility are the entirety of the service that 
Winvale/CSID is supposed to be providing. Thus far, Federal employees 
have not been able to rely on the accuracy and accessibility of the 
credit monitoring services that have been provided. Yet, OPM gave 
Winvale/CSID what appears to be a sole-source $20 million contract with 
four 1 year renewal options. These issues need to be addressed and 
Federal employees must have reliable credit monitoring services 
immediately.
    AFGE has received disturbing reports that agencies are denying 
Federal employees the time to deal with the impact of the data breach. 
At numerous agencies, employees are forbidden to use their government 
computers for any purpose other than a work assignment. They are 
forbidden from using their government computers to access personal 
emails or any non-work related Web sites for any reason. Federal 
employees dealing with this breach need to be able to visit their 
banks, Social Security offices, mortgage holder's offices, the 
management offices of their apartment complexes, and other creditors in 
order to deal with the fallout of having to change credit card and bank 
account information. Many agencies' computer firewalls prevent 
employees from being able to handle these kids of transactions online. 
Therefore, agencies should grant employees time during normal business 
hours to take preventive measures such as contacting their financial 
institutions and businesses as notification of their current situation. 
Additionally, it is extremely important that OPM ensure that agencies 
are meeting all of their collective bargaining obligations on 
procedures for accommodating employees trying to deal with the breach.
    Federal employees trusted OPM with their personal information and 
the agency failed them. Their personal information was not properly 
guarded, and as a result, Federal Government workers and their families 
must now live with the threat of having the most intimate details of 
their lives exposed, and illegally used against them. The Government 
must now earn back the trust of these employees and future public 
servants. AFGE thanks the subcommittee for holding this hearing.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Boozman. If there are no further questions, the 
hearing record will remain open until next Tuesday, June 30, at 
noon, for subcommittee members to submit any statements or 
questions to the witnesses for the record.
    [The following questions were not asked at the hearing, but 
were submitted to the Agency for response subsequent to the 
hearing:]
             Questions Submitted to Katherine L. Archuleta
               Questions Submitted by Senator Jerry Moran
                              data breach
    Question. At last week's hearing, you indicated that OPM estimated 
the total number of individual impacted by this most recent data breach 
to be approximately 4 million. Media reports suggest that an internal 
memo from OPM suggests that as many as 18 to 30 million individuals 
could be impacted by the series of breaches dating from March 2014 
until present. Can you please provide the most up-to-date information 
regarding the number of individuals impacted directly by this breach? 
What percentage of the total number of OPM's records are considered to 
contain national security information or sensitive information 
necessary for identity theft or fraud? Of that, what percentage of 
those records were included in this breach? In addition, please provide 
any information you see fit that can be helpful to quantify the 
severity of this breach.
    Answer. In April 2015, OPM discovered that the personnel data of 
4.2 million current and former Federal Government employees had been 
stolen. This means information such as full name, birth date, home 
address, and Social Security Numbers were affected. This number has not 
changed since it was announced by OPM in early June, and individuals 
who were affected should have already received a notification.
    While investigating this incident, in early June 2015 OPM 
discovered a separate but related incident where additional information 
had been compromised, including background investigation records of 
current, former, and prospective Federal employees and contractors. OPM 
and the interagency incident response team have concluded with high 
confidence that sensitive information, including the Social Security 
Numbers (SSNs) of 21.5 million individuals, was stolen from the 
background investigation databases. This includes 19.7 million 
individuals that applied for a background investigation, and 1.8 
million non-applicants, primarily spouses or co-habitants of 
applicants. Some records also include findings from interviews 
conducted by background investigators and approximately 1.1 million 
include fingerprints. Usernames and passwords that background 
investigation applicants used to fill out their background 
investigation forms were also stolen. Notifications for this incident 
have not yet begun.
    Question. You indicated in your testimony last Tuesday that there 
were three separate breach incidences that caught the attention of OPM 
last year. In March 2014, you explained that OPM successfully detected 
a breach attempt but that no personal information had been obtained. 
Later that summer, two government security clearance contractors were 
breached. In June 2014, 25,000 records, which included highly-sensitive 
security clearance information, were obtained from security contractor 
U.S. Investigations Services (USIS). Two months later, another security 
clearance contractor, KeyPoint Government Solutions, suffered an even 
greater breach. This time over 48,000 records were obtained. In each 
successful breach incidence, OPM was required to issue notification 
letters to affected individuals. OPM clearly knew that this sensitive 
security clearance information was a target of hackers. It was later 
revealed that this sensitive information may have been used to 
infiltrate the OPM network. Was this security clearance information 
used to gain access to the OPM network? Please offer a detailed 
description of your response to these serious breaches. What security 
procedures and improvements were put in place? How often did you meet 
with your CIO and other top security officials within OPM to discuss 
these breaches and develop a response strategy? Please provide a 
calendar of those meetings and the topics discussed. Please describe 
any new policies OPM required to access the OPM network following the 
breaches.
    Answer. The adversary gained access to OPM systems through the 
agency's Local Area Network by employing stolen user credentials from a 
contractor. OPM has already taken a series of 23 concrete steps to 
improve information security, as outlined in its recent Cybersecurity 
Action Report. These include:

  --Implementing two factor strong authentication for all privileged 
        users, and increasing the percentage of unprivileged users with 
        two factor Strong Authentication;
  --Restricting remote access for network administrators and 
        restricting network administration functions that can be 
        performed remotely;
  --Reviewing all Internet connections to ensure that only legitimate 
        business activities have access to the Internet;
  --Deploying new hardware and software tools, including 14 essential 
        tools to secure the network;
  --Deploying anti-malware software tools across the environment to 
        protect against cybercrime activities that could compromise the 
        agency's networks;
  --Establishing a 24/7 Security Operations Center, staffed by 
        certified professionals, to monitor the network for security 
        alerts;
  --Implementing continuous monitoring to enhance the ability to 
        identify and respond, in real time or near real time, to cyber 
        threats;
  --Installing more firewalls that allow the agency to filter network 
        traffic more effectively;
  --Working with the intelligence community and other stakeholders to 
        identify high value cyber targets within the OPM network where 
        bulk PII data are present, and mitigate the vulnerabilities of 
        those targets to the extent practicable;
  --Modernizing OPM's IT network technology and architecture; and
  --Tightening policies and practices for privileged users.

    These actions have put OPM in a much stronger and more secure 
posture than it was when then-Director Archuleta assumed her role. OPM 
systems currently thwart millions of intrusion attempts that target its 
networks every month. In addition to these past and ongoing activities, 
OPM has recently identified several additional actions to bolster its 
security and modernize IT systems. These include:

  --Deploying two factor Strong Authentication for all unprivileged 
        users (Complete);
  --Expanding continuous monitoring and completing implementation of 
        the Continuous Diagnostics and Mitigation program by March 
        2016;
  --Establishing requirements for future contracts, as appropriate, to 
        ensure access to contractor systems in the event of an incident 
        (Complete);
  --Completing a review of encryption of databases (Complete);
  --Hiring a new cybersecurity advisor (In progress);
  --Consulting with outside technology and cybersecurity experts to 
        identify further steps the agency can take to protect its 
        systems and information Complete);
  --Migrating to a new IT environment capable of significantly 
        increased security controls (In progress); and
  --Establishing regular employee and contractor training on 
        appropriate cyber hygiene and practices (In progress).

    Question. In December 2014, one of the breached security 
contractors, U.S. Investigations Services (USIS) has accused the OPM of 
neglecting to share information that might have helped the contractor 
detect the breach that occurred in June 2014. Did OPM reveal to its 
contractor, USIS, that it had recently suffered a cyberattack? If not, 
why did OPM not share this information? To what extent did OPM's 
continued refusal to adopt IT best practices and OMB-required IT 
procedures contribute to these potential security vulnerabilities at 
the contractor level? Was it required that OPM share critical 
information about the March 2014 attack?
    Answer. OPM did not disclose to USIS that OPM systems had been 
breached in March 2014. In our opinion, there was no clear requirement 
that OPM notify USIS of the breach.
    Question. One significant factor that may have led to this breach 
is the repeatedly ignorance of OMB policies and IT best practices. As 
Assistant Inspector General Esser indicated in testimony, the fiscal 
year 2014 FISMA report offered OPM 29 recommendations covering a wide 
variety of IT security topics; however, OPM has only adopted 3 of those 
29 recommendations to date. The fiscal year 2014 audit also revealed 
that 11 of 47 OPM IT systems were operating without a valid 
Authorization, including some of the most critical and sensitive 
applications owned by the agency. One tool available to OPM is the 
ability to institute administrative sanctions to correct this gross 
negligence. The OIG explains this could be an effective way to reduce 
non-compliance with FISMA requirements.
    Answer. Within the past year OPM has taken great strides in 
improving the enterprise. Much of the recommendations issued by DHS in 
2014 have been achieved and OPM is on track to meet or exceed all 
Federal mandates including leading in the FISMA Cyberstat, DHS TIC v2, 
and HSPD-12.

    The following are some of the accomplishments:

  --Implemented Level 4 two factor authentication for all privileged 
        and non-privileged users. The requirement of utilizing PIV for 
        all users has made OPM a leader in complying with the HSPD-12 
        mandate and significantly reduces the attack surface of the 
        network.
  --Restricted remote access for network administrators and restricted 
        network administration functions that can be performed 
        remotely.
  --Reviewed all connections and associated Access Control Lists (ACLs) 
        to ensure only legitimate business connections have access to 
        the Internet. This includes blocking privileged users' access 
        to the Internet.
  --Required administrators to authenticate through a privileged user 
        management appliance in order to perform all administrative 
        functions. Direct access to servers or databases cannot be 
        achieved by users or administrators.
  --Deployed new hardware and software tools to secure the network. 
        Including:

    --Endpoint protection to detect and prevent malicious and 
            unauthorized software from installing and running on 
            endpoints and servers.
    --Web Application Firewalls to monitor traffic to and from Web 
            applications and prevent common attacks such as DDOS, 
            cross-site scripting, SQL injection, and session hijacking.
    --Endpoint anti-virus/malware scanning to quickly detect and block 
            viruses and malware.
    --Automated threat response to unify, automate, and orchestrate 
            incident responses to ensure speed and decisiveness.
    --Network Access Control to detect and limit unauthorized access 
            from devices that do not meet OPM policy.
    --Business critical data and database compliance by providing 
            visibility into data access and tracking users' activity 
            and data sets.
    --Advanced firewall services to better protect and filter network 
            traffic on the internal and external perimeter.
    --Network risk and vulnerability monitoring and assessments to 
            identify areas of weakness in the network architecture.
    --Inbound and outbound SSL inspection to audit and monitor 
            encrypted malicious traffic.
    --Deployed network and email data loss prevention solution to 
            detect data exfiltration.
    --Implemented anti-phishing and anti-malware inspection and 
            prevention of email traffic.

  --Deployed additional firewalls to segment and monitor internal 
        traffic.
  --Implemented continuous monitoring to enhance the ability to 
        identify and respond, in real time or near real time, to cyber 
        threats.
  --Centralized security management and accountability into the Office 
        of the CIO and staffed it with security professionals who are 
        fully trained and dedicated to information security on a full-
        time basis.
  --Conducted a comprehensive review of IT security clauses in 
        contracts to ensure that the appropriate oversight and 
        protocols are in place.

    Question. A number of current and former Federal employees have 
expressed confusion and concern about the credit monitoring process, 
which requires the input of sensitive information online. These workers 
have also complained about frustrating multi-hour wait times to speak 
with CSID representatives on the phone. Many are unfamiliar with the 
vender, CSID, and the process to enroll in credit monitoring services. 
What assurances can you provide that the information submitted by 
impacted individuals will be safe and secure with this contractor? Does 
this contractor use secure technologies, such as encryption, to protect 
sensitive information? Are you aware of any phishing attacks or other 
scams to obtain sensitive information from impacted individuals? Has 
the contractor made a commitment to improve wait times or increase 
their ability to address claims being made by impacted individuals?
    Answer. CSID is the engine behind eight of the top 10 identity 
theft protection companies. CSID fully encrypts critical values in 
production databases to prevent the exposure of sensitive information 
stored in the database to unauthorized persons. CSID employs policies, 
procedures, and protection standards meeting or exceeding those in the 
industry for securing Personal Identifiable Information (PII). CSID is 
required to comply with standards around data, systems, process, and 
personnel resources consistent with the same standards held for all 
three credit bureaus. The contract provides that OPM may conduct onsite 
inspections--see clause 15.31 1752.239-86 Contractor System Oversight/
Compliance (Sep 2014). CSID is subjected to regular vulnerability 
scans, penetration tests, annual PCI audits, credit bureau audits, and 
other security related exercises that allow CSID to meet these 
compliance standards. OPM's contract with Winvale includes additional 
clauses regarding the Privacy Act and other matters involving sensitive 
information processing and storage. With any publicly announced data 
breach there are attempts by bad actors to exploit the situation. OPM 
has gone to extensive lengths via our Web site and guidelines issued to 
agencies to provide tools for affected individuals to validate 
communications. CSID, in communication with OPM, has added significant 
numbers of trained staff to their call centers, and the average wait 
time is now less than one minute.
    Question. Earlier this year, an American healthcare company 
suffered a massive breach that involved roughly 80 million records. In 
that instance, the company decided to provide 24 months of credit 
monitoring services. Why did OPM choose to offer 18 months of credit 
monitoring services to impacted individuals? What is the total 
estimated cost to provide both breach notification and credit 
monitoring services to 4 million figure you provided as the number of 
impacted individuals? What would be the cost to provide breach 
notification and credit monitoring services to 18 million impacted 
individuals, as has been the number suggested in media reports this 
week?
    Answer. A careful and thoughtful analysis of the risks presented by 
the personnel records incident as well as a review of the services 
available, precedent, and industry best practices led OPM to conclude 
that 18 months is the appropriate duration for the comprehensive suite 
of services offered to help Federal employees.
    Question. During your testimony, you mentioned the development of 
an OPM IT plan that was drafted within the first 100 days of your 
tenure at the agency. Will you please share that plan? What elements of 
the plan outlined OPM's timeline for securing sensitive personnel data?
    Answer. A copy of the OPM Strategic IT Plan was sent to your 
subcommittee. The Information Security section (page 17) details three 
phases that ensure our information security policies are rigorous and 
cost effective based on a risk assessment methodology that considers 
both current and potential threats.
    Question. One of the witnesses at last Tuesday's hearing testified 
that the most important thing OPM could do is secure sensitive 
information immediately. How does OPM plan to develop this capability? 
Does OPM plan to build its own security tools? To what extent has OPM 
either requested proposals for commercially available security software 
or tools?
    Answer. OPM continues to take aggressive action to strengthen its 
broader cyber defenses and IT systems. As outlined in its recent 
Cybersecurity Action Report, in June, OPM identified 15 new steps to 
improve security, work with outside experts, modernize its system, and 
ensure accountability. OPM is currently completing a comprehensive 
review of its IT systems to find and address any potential 
vulnerabilities. It is bringing in experts from in and outside of the 
Government to help with these efforts, including a new cybersecurity 
advisor. OPM is also working with interagency partners on a review of 
key questions related to information technology governance, policy, 
security, and other aspects of the security clearance process, 
including where such data should be housed in the future.
                   information technology governance
    Question. Describe the role of your agency's Chief Information 
Officer (CIO) in the development and oversight of the IT budget for 
your agency. How is the CIO involved in the decision to make an IT 
investment, determine its scope, oversee its contract, and oversee 
continued operation and maintenance? How often do you meet with your 
CIO and other top IT security professionals within your agency? Please 
provide a detailed summary of meetings you have had with your CIO and 
her team since you entered the agency in November 2013.
    Answer. The CIO is involved in every aspect the IT budget 
development process at OPM. The OPM CIO is responsible for all major IT 
investments from scoping to oversight of the delivery of services on a 
contract. The CIO discusses these decisions through standing weekly, 
and sometimes daily, meetings with the OPM Director.
    Question. What formal or informal mechanisms exist in your agency 
to ensure coordination and alignment within the CXO community (i.e., 
the Chief Information Officer, the Chief Acquisition Officer, the Chief 
Finance Officer, the Chief Human Capital Officer, and so on)?
    Answer. The Chief Operating Officer serves as a leader in OPM to 
focus the efforts of the CXO positions. Each of these interests is 
represented in OPM's strategic plan as a supporting function to the 
primary business missions of OPM. The OPM strategic plan addresses the 
priorities of the agency and ensures alignment of resources toward the 
stated goals. The COO hosts a weekly staff meeting so CXO executives 
can share ideas, work through challenges, and determine the best way 
forward for OPM.
    Question. According to the statistics from your office, 46 percent 
of the more than 80,000 Federal IT workers are 50 years of age or older 
and more than 10 percent are 60 or older. Just 4 percent of the Federal 
IT workforce is under 30 years of age. Does the makeup of your agency 
reflect such demographic imbalances? How is OPM addressing this talent 
issue?
    Answer. Our objective, given the current fiscal environment, is to 
raise and leverage awareness of the Federal cybersecurity workforce 
across Government. This includes ensuring that the public knows these 
positions are available and how to apply for them.

  --This awareness is being done primarily by working with technology 
        departments at colleges and universities to educate students 
        and staff about the Pathways Program and the hiring 
        flexibilities available to agencies to recruit and onboard STEM 
        graduates.
  --The Presidential Management Fellowship (PMF) program and the new 
        PMF-STEM portfolio attract applicants with cybersecurity skills 
        in disciplines such as computer science, computer engineering 
        and computational analytics.
  --Our outreach guidance provides Federal agencies with up-to date 
        information on how to message their opportunities, encourages 
        them to work within their communities to strengthen the local 
        talent pipeline in their communities, and provides workforce 
        planning tools that enable them to plan for and get the 
        workforce they need.

    OPM also has the leadership role for the Administration's 
Initiative to Close Cybersecurity Skill Gaps.

  --This collaborative governmentwide strategy involves partnering with 
        the Office of Management and Budget and the Office of Science 
        and Technology in the Executive Office of the President as well 
        as interagency councils and the Federal agencies.
  --Currently, we are mapping the existing Federal cybersecurity 
        workforce using OPM's new Cybersecurity Data Element Standard 
        that recognizes the value of the NICE Framework.
  --Our goal is that this new dataset in fiscal year 2015 and beyond 
        will be a driving force that aids Federal agencies in getting 
        the workforce they need.
  --The re-categorizing of Federal positions with cybersecurity work 
        will tell us what skills are in demand and what skills need to 
        be refreshed or developed.
  --Our job announcements will be designed to get the candidate quality 
        desired by our hiring managers.
  --Our training and development opportunities will be better designed 
        to attract and retain the workforce we need.

    Question. One theme you mentioned in your testimony was related to 
OPM's legacy IT system. How much of the OPM budget goes to 
Demonstration, Modernization, and Enhancement of IT systems as opposed 
to supporting existing and ongoing programs and infrastructure? How has 
this changed in the last 5 years?
    Answer. OPM's annual IT Spend from fiscal year 2012 to fiscal year 
2016 for Development, Modernization and Maintenance (DME) and 
Operations and Maintenance (O&M) as reported to OMB is outlined below.

  --Fiscal Year 2012: DME: $63,724,442; O&M: $201,539,995;
      Total: $265,264,437;

  --Fiscal Year 2013: DME: $97,273,199; O&M: $211,815,787;
      Total: $309,088,986;

  --Fiscal Year 2014: DME: $69,299,462; O&M: $281,880,002;
      Total: $351,179,464;

  --Fiscal Year 2015: DME: $110,724,682; O&M: $257,968,435;
      Total: $368,693,117;

  --Fiscal Year 2016: DME: $61,670,770; O&M: $310,075,505;
      Total: $371,746,275

    Question. What are the 10 highest priority IT investment projects 
that are under development in your agency? Of these, which ones are 
being developed using an ``agile'' or incremental approach, such as 
delivering working functionality in smaller increments and completing 
initial deployment to end-users in short, 6-month timeframes? Please 
describe how the OPM IT plan developed in your first 100 days at the 
agency reflects this encouraged development method.
    Answer. The table below shows the high priority IT projects that 
are currently under development at OPM. The IT Strategic Plan has 
served as a catalyst for the Investment Teams to make the transition to 
Agile and/or incremental development a top priority. Ultimately, moving 
development from a waterfall to agile methodology allows for more 
efficient and effective project management and is paramount to the 
long-term success of projects at OPM.

------------------------------------------------------------------------
                                                         Using Agile
    #            Project             Investment          Development?
------------------------------------------------------------------------
1         USAJOBS.............  USAJOBS............  Yes
2         Enterprise Case       ECMS...............  Yes, it is a
           Management System                          contract
           (ECMS).                                    requirement for
                                                      the implementation
                                                      of the software
                                                      which is currently
                                                      in the acquisition
                                                      stage.
3         Shell--Infrastructur  Enterprise           Yes, the migration
           e Improvement         Infrastructure       of existing
           Project.              Operations (EIO).    applications to
                                                      Shell will be done
                                                      using an agile
                                                      methodology.
4         Legacy Migration....  EPIC Transformation  No. Project is on
                                                      hold.
5         Electronic Official   eOPF...............  Yes
           Personnel Folder
           (eOPF).
6         EHRI Data Warehouse.  EHRI Data Warehouse  Yes
7         Retirement Data       eOPF...............  Yes
           Repository.
8         New USA Staffing....  USA Staffing System  Yes
9         Legacy USA Staffing   USA Staffing System  Yes
           to include core USA
           Staffing,
           Application
           Manager, On
           Boarding Manager
           and Selection
           Manager.
10        USA Performance.....  USA Performance....  Yes
------------------------------------------------------------------------


    Question. To ensure that steady State investments continue to meet 
agency needs, OMB has a longstanding policy for agencies to annually 
review, evaluate, and report on their legacy IT infrastructure through 
Operational Assessments. What Operational Assessments have you 
conducted and what were the results?
    Answer. As per OMB's requirement, the major investments listed 
below are in the O&M stage and have conducted an Operational Analysis 
(OA) or Post-Implementation Review (PIR). All of the OAs and PIRs touch 
on number issues and are many pages long (10+). Hence forth, it is 
difficult to summarize in a few sentences as to whether all aspects of 
the investment are performing well.

  --USAJOBS
  --USA Staffing System
  --Enterprise Infrastructure Operations (EIO)
  --EHRI electronic Official Personnel Folder (eOPF)
  --EHRI Data Warehouse
  --Consolidated Business Information System (CBIS)

    Question. What are the 10 oldest IT systems or infrastructures 
maintained by the Office of Personnel management? How old are they? 
Would it be cost-effective to replace them with newer IT investments?
    Answer. The applications that are the oldest are in OPM's 
Retirement Services and Federal Investigative Services. Retirement 
Services has more than 60 applications dating back to the mid-1980's. 
OPM's modernization plan is replacing these applications with newer IT. 
Our goal is to move into a more modern infrastructure environment and 
to move off of the main frame.
    Question. How does OPM's IT governance process allow for your 
agency to terminate or ``off ramp'' IT investments that are critically 
over budget, over schedule, or failing to meet performance goals? 
Similarly, how does your agency's IT governance process allow for your 
department/agency to replace or ``on-ramp'' new solutions after 
terminating a failing IT investment?
    Answer. OPM established an Investment Review Board (IRB) as the 
authoritative body to review and recommend investment priorities to the 
OPM Director for IT spending. The current IRB charter States that one 
of the IRB functions is to: ``Monitor ongoing information technology 
investments against their projected costs, schedules, and benefits, and 
take action to recommend continuation, modification, or termination.'' 
The IRB is comprised of senior management of all OPM offices which meet 
on a quarterly or as-needed basis to receive IT Investment assessment 
briefings. If a new solution or replacement is required, the IRB would 
receive a Business Case from the IT Investment. The IRB would review 
and provide disapproval or approval of the Business Case.
    Question. What IT projects has your agency decommissioned in the 
last year? What are your agency's plans to decommission legacy IT 
projects this year?
    Answer. OPM has not decommissioned any IT projects in the last 
year. However, OPM has initiated multiple IT projects to replace 
numerous legacy IT projects. These include the Shell project which will 
incorporate numerous technology upgrades to the OPM IT infrastructure; 
and the Enterprise Case Management System (ECMS) project which will 
replace legacy case management systems.
    Question. The newly-enacted Federal Information Technology and 
Acquisition Reform Act of 2014 (FITARA, Public Law 113-291) directs 
CIOs to conduct annual reviews of their department's IT portfolio. 
While OPM is not subject to FITARA, does OPM conduct these types of IT 
portfolio reviews? If so, please describe your agency's efforts to 
identify and reduce wasteful, low-value or duplicative information 
technology (IT) investments as part of these portfolio reviews.
    Answer. OPM is subject to FITARA and agrees with its efforts to 
centralize the oversight process for IT investments. The required 
elements of FITARA will position OPM to address previous issued IG 
findings and recommendations. OPM believes this shift will greatly 
strengthen its efforts to ensure effective and efficient spending on IT 
investments.
    Through improved governance and oversight of IT investments and 
initiative development, OPM is reducing the redundancy of systems and 
capabilities across the enterprise. For example, an enterprise case 
management system has been put into place, which will remove 
duplication and assist in fulfilling mission critical needs for FIS and 
Retirement Services.
    Question. In 2011, the Office of Management and Budget (OMB) issued 
a ``Cloud First'' policy that required agency Chief Information 
Officers to implement a cloud-based service whenever there was a 
secure, reliable, and cost-effective option. How many of the agency's 
IT investments are cloud-based services (Infrastructure as a Service, 
Platform as a Service, Software as a Service, etc.)? What percentage of 
the agency's overall IT investments are cloud-based services? How has 
this changed since 2011?
    Answer. OPM's new infrastructure is essentially a cloud based 
service. It will be infrastructure as a service to our program offices, 
including software, storage, and security as a service. We are moving 
to a total cloud based methodology. As OPM in its modernization plan is 
collapsing the five data centers that it currently operates into two 
commercial data centers, we are building our cloud service as a high 
security center.
    Question. Provide short summaries of three recent IT program 
successes--projects that were delivered on time, within budget, and 
delivered the promised functionality and benefits to the end user. How 
does your agency define ``success'' in IT program management? What 
``best practices'' have emerged and been adopted from these recent IT 
program successes? What have proven to be the most significant barriers 
encountered to more common or frequent IT program successes?
    Answer. USAJOBS utilizes modern user-centered design practices, 
agile software development, data analytics, and DevOps to deliver high-
value features and enhancements every 9-12 weeks. Leveraging human-
centered design methodology, USAJOBS engages users early and often in 
the design process to ensure that features are designed and developed 
to provide the best possible user experience. USAJOBS employs Agile 
software development practices to rapidly adjust to changing customer 
priorities, allowing the program office to always be working on the top 
user priority and deliver completed software features after every three 
week sprint.
    USAJOBS creates a measurement plan for all new features, defining 
measurable goals that can be captured in real-time. Gone are 
spreadsheets, static PowerPoints, and manual performance monitoring--
USAJOBS monitors all key performance indicators via a real-time 
analytics dashboard that is populated by our data warehouse. Since 2013 
USAJOBS has taken methodical steps to increase the efficiency of our 
development pipeline by employing DevOps best practices. Practices like 
continuous integration, automated testing, and automated security 
scanning have decreased the technical overhead surrounding software 
deployments and increased our security posture. These best practices 
have increased customer satisfaction, changed user behaviors and 
reduced support costs while gaining efficiencies in delivering value to 
the customer. The following three IT programs are examples of how OPM 
has successfully applied IT best practices to deliver systems that 
reflect Federal agencies business needs and priorities:

  --USA Staffing is OPM's Talent Acquisition System for Federal 
        agencies. Created by OPM and informed by the experience of more 
        than 50 agencies, USA Staffing helps agencies acquire, assess, 
        certify, select, and onboard qualified candidates in alignment 
        with Merit System Principles and Veterans Preference. USA 
        Staffing is tightly integrated with USAJOBS and compliant with 
        Federal hiring regulations and Federal Information Technology 
        (IT) requirements. Through Agile IT, USA Staffing and USAJOBS 
        share technical solutions, such as user authentication and 
        document upload processes, and collaborate to carry out joint 
        research on governmentwide priorities, including encryption 
        solutions.
  --OPM's HR Solutions (HRS) and Chief Information Officer (CIO) 
        completed a multi-year project (launched in September 2012) to 
        upgrade USA Staffing. OPM initiated the Upgrade to: (1) ensure 
        modern technologies are in place to support capacity demands; 
        (2) improve speed to mission by enabling USA Staffing to be 
        more responsive to customer requirements and OPM initiatives; 
        and (3) expand data analytics that can be used by management to 
        improve the hiring process. Of note, USA Staffing accounted for 
        78 percent of Federal job postings on USAJOBS in fiscal year 
        2014.

    Barriers to success include the lengthy hiring process which often 
        delays necessary hires, and the Federal contracting process 
        which inhibits the Agile System Development Life Cycle.

  --USA Performance (USAP) was developed in direct response to the 
        overwhelming need across Government for an automated 
        performance management tool. USAP addresses a critical gap in 
        available technology to appropriately automate this fundamental 
        human resources function in all Federal agencies. USAP uses the 
        latest IT development principles (Agile) and technology to 
        build a cost-effective and desirable system. These principles 
        include focusing on the most valuable functionality with 
        constant stakeholder input and engaging in frequent planning to 
        ensure successful software delivery. USAP operates in 4 week 
        sprints to develop and test new functionality. As such, the 
        system (initially released in July 2014) was developed on 
        schedule (less than 16 months) and under budget estimates. 
        Since the initial release, USAP has had six subsequent releases 
        to enhance functionality. In the first 6 months of planning, 
        USAP convened key representatives from 10 Federal agencies to 
        capture requirements for designing USAP and gain better 
        understanding of their business needs. USAP also facilitates 
        frequent usability testing with potential end users from a 
        variety of agencies on system features as the features are 
        being developed. This results in faster approval, increased 
        satisfaction, and easier adoption by pilot agencies. Through 
        continuous stakeholder involvement, the development team and 
        the programmers can focus on developing the highest value 
        functions in the tool. OPM continues to facilitate monthly 
        advisory board meetings for agencies to provide input and 
        feedback on USAP enhancements and other changes now that 
        agencies are using the tool. USAP is an evolving, growing 
        system. As a result of these development principles, USAP 
        anticipates continued program success. USAP has been 
        acknowledged outside of OPM for its innovation and efforts to 
        revolutionize performance management. In 2014, USAP won the 
        Nextgov Bold Award, the People's Choice Award, and received 
        third place from HCMG for ``Best Implementation of an 
        Enterprise Technology System.''
                                 ______
                                 
          Questions Submitted by Senator Christopher A. Coons
    Question. Do you know exactly what your requirements are for the IT 
modernization project so that the contractor is not in the driver's 
seat to determine your requirements for you (which has led other 
agencies' IT projects to their downfall)?
    Answer. Yes. OPM's Federal employees created the requirements for 
Shell and the phased approach that would be used to implement the plan 
before hiring contractor assistance with execution of the plan.
    Question. Have you reviewed other agencies' successful IT projects 
to use as a model?
    Answer. Yes. OPM consulted with other Federal agencies to hear of 
lessons learned and leading practices prior to full development of 
requirements, scope and budget.
    Question. GAO has recommended that for IT projects to be 
successful, they should be broken down into smaller segments, which 
allows for better oversight of the project, increasing odds of avoiding 
schedule delays and cost overruns. Do you feel that this project is 
designed in that manner or are there improvements that can be made in 
that regard?
    Answer. Yes. OPM's IT Modernization Plan was broken down into 4 
phases to better manage requirements, budgets and execution. The four 
phases are:

  --Phase 1--Tactical: Deployment of expanded security tools to 
        strengthen existing OPM network.
  --Phase 2--Shell: Design and deploy new data center infrastructure.
  --Phase 3--Migration: Re-architect OPM applications to make best use 
        of Shell and current technologies and to find efficiencies 
        across applications through reuse.
  --Phase 4--Decommission: Remove hardware from existing network as 
        applications move to Shell.

    Question. Has the Chief Information Officer had experience handling 
projects of this dimension?
    Answer. Yes. Mrs. Seymour served as the Executive Director, 
Enterprise Human Resource Information Systems where she was responsible 
for providing Department of Defense wide information technology 
solutions to meet the needs of 35,000 HR specialists, DOD civilian 
employees, and military and civilian managers and leaders. She began 
her Federal career in 1978 and has concentrated primarily in the area 
of information technology, especially its ability to transform the 
workforce and business of the Federal Government, acquisition, 
financial management, and human resources management.
    Question. Do you expect this project to be on OMB's IT Dashboard?
    Answer. Yes, the 10 highest priority projects currently are or are 
expected to be on OMB's IT Dashboard.

                         CONCLUSION OF HEARINGS

    Senator Boozman. With that, the subcommittee hearing is 
adjourned.
    [Whereupon, at 12:44 p.m., Tuesday, June 23, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]
</pre></body></html>
